<html>
<title> - 2006 NOBEL LAUREATES</title>
<body><pre>[Senate Hearing 110-1209]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1209

 
                          2006 NOBEL LAUREATES

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, 
                             AND INNOVATION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 2, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
79-907                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cdaabda28daeb8beb9a5a8a1bde3aea2a0e3">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
Kenneth R. Nahigian, Republican Deputy Staff Director and Chief Counsel
                                 ------                                

          SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND INNOVATION

JOHN F. KERRY, Massachusetts,        JOHN ENSIGN, Nevada, Ranking
    Chairman                         JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         KAY BAILEY HUTCHISON, Texas
    Virginia                         GORDON H. SMITH, Oregon
BYRON L. DORGAN, North Dakota        JOHN E. SUNUNU, New Hampshire
BARBARA BOXER, California            JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
MARK PRYOR, Arkansas
CLAIRE McCASKILL, Missouri
AMY KLOBUCHAR, Minnesota


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 2, 2007......................................     1
Statement of Senator Boxer.......................................     3
Statement of Senator Klobuchar...................................    30
Statement of Senator Pryor.......................................     1
Statement of Senator Stevens.....................................     2
    Prepared statement...........................................     2

                               Witnesses

Fire, Dr. Andrew, Departments of Pathology and Genetics, Stanford 
  University School of Medicine..................................    10
    Prepared statement...........................................    10
Kornberg, Dr. Roger, Winzer Professor in Medicine, Stanford 
  University.....................................................     4
    Prepared statement...........................................     6
Mather, Dr. John C., Chief Scientist, Science Mission 
  Directorate, NASA..............................................    15
    Prepared statement...........................................    15
Mello, Ph.D., Craig C., Howard Hughes Medical Institute 
  Investigator and the Blais University Chair in Molecular 
  Medicine, University of Massachusetts Medical School...........    13
    Prepared statement...........................................    13
Smoot, Ph.D., George, Senior Scientist, Lawrence Berkeley 
  National Laboratory, Professor of Physics, University of 
  California, Berkeley...........................................    18
    Prepared statement...........................................    19

                                Appendix

Response to written questions submitted by Hon. Mark Pryor to Dr. 
  Roger Kornberg.................................................    35


                          2006 NOBEL LAUREATES

                              ----------                              


                         WEDNESDAY, MAY 2, 2007

                               U.S. Senate,
            Subcommittee on Science, Technology, and Innovation,   
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 4:02 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Pryor, 
presiding.

             OPENING STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. The Committee will come to order, and we 
will have probably at least one or two more Senators come and 
go. We have a very busy Committee schedule today on the Senate 
side. But, on behalf of Chairman Inouye and Vice Chairman 
Stevens and Senators Kerry, Ensign, and Boxer, and the Science, 
Technology, and Innovation Subcommittee, I would like to 
welcome our distinguished guests and the 2006 Nobel Laureates 
in Chemistry, Medicine, and Physics.
    Taken together, these gentlemen represent the first 
American sweep of the science Nobel Prize categories since 
1983. Their achievement will, I hope, inspire young people to 
study science and inspire policymakers to rededicate themselves 
to preserving America's role as the world's preeminent 
scientific nation.
    For the past half-century, the United States' investment in 
basic research has been the engine that drives our economy. In 
1945, Vannevar Bush submitted his report, ``Science: The 
Endless Frontier,'' to President Franklin Delano Roosevelt that 
spurred the creation of a system of public support for 
university research that endures to this day.
    The goal of basic research is to discover new scientific 
ideas, principles, and theories. Nobody can predict the next 
breakthrough in science; however, the connection between basic 
research and the economy is straightforward. Basic research 
produces the discoveries that, through innovation, become the 
products that transform and strengthen our economy.
    The American Association for the Advancement of Science 
reports that the overall Federal investment in research and 
development would increase to $143 billion in Fiscal Year 2008. 
However, in a repeat of past budgets, the continuing 
administration priorities of weapons and space vehicles 
development would take up the entire increase, and more. 
Funding for the basic and applied research portion of the R&D 
portfolio would actually fall by 2.1 percent, to $55.5 billion.
    As a percentage of GDP, the U.S. Federal investment in 
physical sciences and engineering research has dropped by half 
since 1970. Gains by NSF, NIST, and the DOE Office of Science 
would be more than offset by cuts in other research agencies, 
such as the National Institutes of Health. These investments, 
while welcome, overall, raise the question of whether the 
United States will continue to make the sufficiently balanced 
investment necessary to maintain its own capacity for 
scientific discovery and technological innovation and remain a 
leading player in an increasingly competitive global 
marketplace.
    Last week, the U.S. Senate passed S. 761, the America 
COMPETES Act. This bill is based heavily on the recommendations 
of the National Academies' report, ``Rising Above the Gathering 
Storm.'' I'm proud to be a cosponsor of the legislation. The 
America COMPETES Act calls for a doubling of the basic research 
budgets of the National Science Foundation, National Institute 
of Standards and Technology, and Department of Energy Office of 
Science. I hope that this legislation will begin to restore our 
science research infrastructure and competitive edge.
    I look forward to working with Chairman Inouye and Vice 
Chairman Stevens, to incorporate the recommendations that we 
hear today as we move forward on the bill.
    Now, I would like to turn the program over to the Vice 
Chair, Senator Stevens of Alaska, and let him make some opening 
statements.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much, Mr. Chairman.
    I've been honored to be with these gentlemen earlier today. 
I will put my statement in the record and will look forward to 
hearing from them here again.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    Mr. Chairman, thank you for holding this hearing today. It is quite 
a privilege to be able to hear from some of the brightest scientific 
minds in the world.
    It has been more than 20 years since Americans have won Nobel 
Prizes for medicine, chemistry, and physics all in the same year. I 
would like to congratulate all of the witnesses for their remarkable 
achievements. From the microscopic to the astronomical, the research 
conducted by these individuals is remarkable and will further advance 
the knowledge of our world for years to come.
    Groundbreaking basic research is the cornerstone of technology and 
societal progress. This type of research helps to improve the health of 
our people, stimulate our economy, preserve our environment, and 
strengthen the national defense over the long-term.
    The continued funding of basic research is critical to maintaining 
the United States' competitive edge in the world. By focusing our 
efforts to support basic research through the National Science 
Foundation, the National Institute of Standards and Technology, and the 
National Labs, we are investing in more bright minds and new ideas that 
will help to ensure that future innovations that transform the world 
will originate here in the United States. By supporting and improving 
the teaching of science, technology, engineering, and mathematics, we 
are also encouraging the next generation of American students to follow 
the example of today's Nobel Laureates.
    Last Wednesday, with the passage of the bipartisan America COMPETES 
Act, the Senate sent a clear message that our Nation's competitiveness 
is a major priority that must be addressed as soon as possible. I was 
pleased to play a major role in developing this legislation to increase 
funding for basic research, strengthen science, technology, 
engineering, and math education, and develop a 21st century innovation 
infrastructure. I hope that we will be able to get this bill signed 
into law as soon as possible.
    Once again, I look forward to hearing from all of our witnesses 
today.
    Thank you.

    Senator Pryor. Thank you. Well, you said you were going to 
be brief. And that's right, isn't it?
    I'd like to introduce two of our Nobel Laureates, and then 
Senator Boxer will introduce the three Nobel Laureates from 
California.
    Let's see, Dr. Craig Mello holds the Blais University Chair 
in Molecular Medicine at the University of Massachusetts 
Medical School. He was awarded the Nobel Prize in Medicine for 
his work on RNA interference.
    Dr. John Mather is the Chief Scientist at NASA, and is the 
co-recipient of the Nobel Prize in Physics. Dr. Mather was 
instrumental in the development of the Cosmic Background 
Explorer that measured the residual heat radiation from the Big 
Bang.
    We'd also like to recognize Dr. Jack Wilson, the President 
of the University of Massachusetts, who's in attendance today.
    Senator Boxer?

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you so much, Mr. Chairman.
    Let me apologize in advance to you, Senator Stevens, and 
our witnesses, because I have other Committee work, but I just 
had to come over here to introduce to the Committee three of 
the finest minds, I'm sure, out of the five that are all the 
finest minds in the world. My three, George Smoot, Roger 
Kornberg, and Andrew Fire, all are Californians, and all are 
2006 Nobel Prize winners. I take great pride in the fact, and I 
know Senator Feinstein does as well, that these three 
Californians were among the five Americans who swept the Nobel 
Prize science awards last year, as our Chairman has said, 
something that hasn't happened in more than 20 years.
    I will start with Dr. Smoot, who shared the Nobel Prize in 
Physics. He's been a professor at the University of California 
at Berkeley, in the Lawrence Berkeley National Lab, since 1970. 
In the years since, he and his team have been dedicated to 
understanding the origin of galaxies and stars, and to getting 
a glimpse of what the universe looked like in its infancy, when 
it was only about 300,000 to 400,000 years old. Dr. Smoot told 
my staff that he had so many questions when he looked up into 
the night sky as a young boy. It's such a joy to see that he's 
continued searching for the answers, and, in turn, he has 
taught us all so much.
    Roger Kornberg, winner of the Nobel Prize for Chemistry, 
has been Winzer Professor in Medicine and Structural Biology at 
Stanford since 1978. While Dr. Smoot looked to the sky and 
asked questions, Professor Kornberg looked down into a 
microscope to explore the building blocks of life. He has 
worked over the years to discover and describe the process of 
how genetic information is copied from DNA inside a cell's 
nucleus and then transferred out to the rest of the cell so 
that proteins can construct the organism and allow it to 
function. Working with his team, he developed highly detailed 
pictures that describe this copying process known as 
transcription, and the applications of this work have 
fundamental medical importance.
    Andrew Fire, who shared the Nobel Prize in Physiology, or 
Medicine, is Professor of Pathology and Genetics at Stanford, 
where he's been since 2003. Professor Fire and his colleague 
Craig Mello, of the University of Massachusetts Medical School, 
led a team that discovered certain molecules, as my Chairman 
has explained, that discovered that certain molecules can be 
used to turn off specific genes in animal cells. And this 
marked the first time biologists were able to selectively 
silence the voice of one gene among the tens of thousands that 
give a cell its instructions from development to death.
    Like Dr. Kornberg's discoveries regarding the transfer of 
genetic information from DNA to the rest of the cell, Dr. 
Fire's work has tremendous medical implications, because 
treatments based on the ability to ID and silence a gene are 
being tested in many animal models of disease--high 
cholesterol, HIV, cancer, and hepatitis, among others--and 
clinical trials have been launched.
    Mr. Chairman, these giants of science are here today to 
talk about the importance of basic science research. The great 
discoveries of tomorrow come when the greatest minds are given 
the resources to do their work. And I know we all want to help 
them get those resources.
    So, I want to thank you for this hearing and for the 
opportunity you've given me to introduce these great 
Californians, and to meet them all.
    Senator Pryor. Thank you. Senator Boxer, thank you. And we 
understand that you're going in different directions today, 
so----
    Senator Boxer. I'll be here for a while.
    Senator Pryor. Thank you for being here. And I know that 
the panel appreciates it, as well.
    Gentlemen, your accomplishments are great, and we are very 
honored to have you here today in the United States Senate. And 
I understand that there's a speaking order, but I guess the 
group has talked and decided that you don't really need to make 
opening statements. Is that right? So, why don't we do this, 
why don't we just go down the row, if that's OK, and just let 
you introduce yourselves, say a couple of sentences, and then 
we'll start our questions and answers. How does that sound?
    Would you like to start?

STATEMENT OF DR. ROGER KORNBERG, WINZER PROFESSOR IN MEDICINE, 
                      STANFORD UNIVERSITY

    Dr. Kornberg. So, I'm Roger Kornberg----
    Senator Pryor. And, I'm sorry, there's a microphone there. 
Just make sure it's on.
    Dr. Kornberg. Oh, now it's on. Can I be heard?
    I'm Roger Kornberg, from Stanford University, and I 
understand that we won't make the statement that we prepared, 
so I'll confine most of my remarks to the discussion that 
follows.
    I did, however, want to comment on one aspect, in case it 
doesn't arise, and which I think is of critical importance, and 
it is that all of our work over the years was supported by NIH. 
The cost was about $20 million over 30 years, mostly used for 
the stipends of more than 80 graduate and postdoctoral 
students. Due to current constraints on the NIH budget, I can 
tell you that virtually none of the work we did then would be 
supported today. I can tell you that a finding I made in 1974, 
of great importance, of a fundamental particle of the 
chromosome would certainly not be successful in the competition 
for a research grant. And the reason is, I had no idea at the 
outset what I might find, and I had no idea how to go about it. 
I only knew that the problem was important and could try and 
advance reasons why I should be given the opportunity of doing 
so.
    In a similar way, the work on RNA polymerase structure, for 
which the Prize was given, was only supported by NIH after it 
became clear the work would succeed. When we began, the 
prospects for success were virtually nil. There was no way of 
producing the RNA polymerase molecule. There was no hope of 
forming the crystals that were needed to obtain the images that 
we eventually obtained. And there was also no technology at the 
time for deriving an image.
    Coming to the point that I wished to make in these remarks, 
the reason for the disconnect between funding and discovery is 
clear, and Senator Pryor has already commented upon it, and it 
is that discoveries are, by their nature, unanticipated, 
they're completely unknown beforehand, they can't be sought out 
in a deliberate way, they can't be proposed to a funding agency 
or evaluated by review groups.
    So, how, then, are discoveries made in our American system? 
And the answer to that question is: by risk-taking. Scientists 
supported to do straightforward research divert some of their 
funds for testing new ideas. If they succeed the results form 
the basis of a successful grant application. If they fail, they 
may be in serious trouble, and be unable to continue, even with 
their original research.
    Now, the risky nature of truly innovative research is the 
strength, and also the weakness, of our system. In the past, 
when NIH funded some 20 to 30 percent of new grant 
applications, most able people could get a grant, and then they 
would conceive of ideas that they would try on the side in the 
manner that I've mentioned. Occasionally, an important 
discovery was made, and this is the way innovation happened. 
Today, with funding levels at 10 percent or less, many fine 
investigators have lost support; few, if any, will take risks; 
and already the pace of discovery is falling dramatically.
    In the March 23, 2007, issue of Science magazine, Senator 
Arlen Specter is quoted as asking the reasonable question, 
``What's going to happen to NIH if the budget is cut by $500 
million,'' a cut of about 5 percent on the funding for basic 
research in the biomedical sphere? And the answer is, of 
course, that the amount of research done, measured, for 
example, by the number of publications, is going to fall by 
about 5 percent. But innovation will be stifled. It will be 
eliminated almost entirely. The chilling effect of funding cuts 
ripples through our system. It deters bold action and 
creativity on the part of established investigators. It 
discourages young scientists even from entering the system. 
This has already happened. My European colleagues told me, 
recently, they've been keenly aware of a reverse brain-drain 
that is already underway.
    The last point that I'd like to make is to reiterate what I 
have just said, and it relates to the adverse effects of flat 
funding or even failing to keep pace with inflation at the NIH, 
where, in fact, a substantial increase is desperately needed.
    The worst adverse effect is the disillusionment of young 
people. The choice of a career in science represents an 
enormous sacrifice. A passion for science must be weighed 
against a long period of training, 10 or more years of 
postgraduate study at low wages, and then the possibility of no 
career at all when you're done. The importance of young 
scientists can't be overstated. Progress in science and 
discovery, in particular--is the work of the best and youngest 
minds. America has taken pride in the Nobel Class of 2006 that 
is with you here today. If we don't take action now to restore 
enthusiasm among young people for the pursuit of science, there 
will be no American Class of 2026.
    I thank you.
    [The prepared statement of Dr. Kornberg follows:]

Prepared Statement of Dr. Roger Kornberg, Winzer Professor in Medicine, 
                          Stanford University

    Chairman Kerry, Ranking Member Ensign, and Members of the 
Subcommittee, I am grateful for this opportunity to describe our 
research to those who support it. I will give a brief account of the 
research, its significance, and future prospects. Then I wish to 
explain some of the challenges we face and how they may be overcome.

The Control of Gene Expression
    Our research has to do with genes, which direct the formation and 
the activities of our bodies. Every cell in our bodies contains a 
complete set of genes. Which subset of genes is used in a particular 
cell determines whether it becomes nerve, muscle, blood, liver and so 
forth. The goal of our research and that of many others has been to 
understand how this controlled use of genetic information is 
accomplished. The practical implications are enormous. All infectious 
disease entails genetic control. Cancer results from a breakdown of 
control. Therapeutic approaches such as stem cells require intervention 
in genetic control.
    Genetic information has been likened to a blueprint or a book. In 
order to use the information, the book must be opened and read. Our 
work has uncovered principles of both the opening and the reading of 
genetic information. We are now close to understanding genetic control.

The Nucleosome, Fundamental Particle of the Chromosome
    Genetic information is contained in a long thin molecule of DNA. 
Human DNA is a meter in length and must be compressed to a micrometer 
in our cells. This might be accomplished in an organized way by 
spooling, as is done for sewing thread or garden hose. The problem is 
that to gain access to a gene in the middle, the entire length must be 
unspooled. Nature has solved this problem by the use of mini-spools. I 
proposed in 1974, and it has since been verified, that DNA is wrapped 
around a set of eight protein molecules in a particle known as the 
nucleosome. A million of these particles are strung together in a human 
chromosome. For access to a gene in the middle, only a few particles 
need be unspooled, while the rest are left undisturbed. Unspooling is a 
key control point for gene activity, and is already a promising target 
of anticancer drugs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

RNA Polymerase, the Gene-Reader in Our Cells
    Once DNA is unspooled, the genetic information can be read. The 
gene reader is a protein machine known as RNA polymerase, which copies 
the genetic message into a related form called RNA, in a process known 
as transcription. RNA directs the synthesis of proteins, which perform 
all bodily functions.
    In work done over the past 25 years, we have obtained a picture of 
RNA polymerase in the act of transcription. RNA polymerase is composed 
of 30,000 carbon, oxygen, and nitrogen atoms. Our picture shows the 
precise location of every atom. In this picture, we see the DNA double 
helix entering the polymerase machine and the RNA product as it is 
formed and released. This picture has revealed the basis for readout of 
the genetic code, and how occasional mistakes are corrected. It has 
already been employed for the design of new antibiotic drugs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Structure of RNA polymerase in the act of gene transcription. 
        Chains of protein building blocks are shown in white and 
        orange. Gene DNA, in the form of a blue and green double helix, 
        enters from the right. RNA, shown in red intertwined with one 
        DNA strand, exits from the top.

The Future: A Molecular Computer for the Control of Gene Expression
    RNA polymerase does not act alone in the readout of genetic 
information. An additional 50 protein molecules participate directly in 
transcription. We discovered, in particular, a giant assembly of 20 
proteins called Mediator that serves as a kind of molecular computer. 
Mediator receives information from inside the cell and from the 
environment, which it processes and delivers to RNA polymerase. A major 
objective for the next decade of our work is to determine the atomic 
structure of Mediator and to understand the control of transcription. 
We already know that mutations in genes encoding Mediator can cause 
cancer. Knowledge of Mediator structure will enable us to correct many 
such problems and to intervene more generally in the control of gene 
expression.

The Challenge of Funding Basic Research
    Our work has been supported almost entirely by the NIH. The cost 
was about $20 million over 30 years, mostly for the stipends of the 
more than 80 graduate and postdoctoral trainees involved. Due to 
current constraints on the NIH budget, virtually none of our work would 
be funded today. I can say with certainty that a grant application for 
the research leading to the discovery of the nucleosome, fundamental 
particle of the chromosome, would not be approved. The reason is 
simple: I had no idea at the outset of what I might find, and no good 
idea of how to go about it. Our RNA polymerase structure work was 
supported by NIH only after it became clear it would succeed. When we 
began, the prospects for success were virtually nil--no way of 
producing the RNA polymerase, no hope of forming the crystals needed 
for imaging, and no technology for deriving the image.
    The reason for the disconnect between funding and discovery is 
clear: funds are awarded for compelling ideas, supported by preliminary 
evidence, creating a high likelihood of success. But discoveries are by 
their nature unanticipated, completely unknown. They cannot be sought 
out in a deliberate manner. They cannot be proposed to granting 
agencies or evaluated by review groups. So how are discoveries made in 
the American system? The answer is by risk-taking. Scientists supported 
to do straightforward research may divert some of their funds for 
testing new ideas. If they succeed, then the results form the basis for 
new grant applications. If they fail, they may be in trouble and be 
unable to continue even with their original research.
    The risky nature of truly innovative research is both the strength 
and the Achilles heel of our system. In the past, when NIH funded 
approximately 20 percent of new grant applications, most capable 
investigators could obtain support, some of them would conceive of and 
try new ideas, and occasionally an important discovery was made. Today, 
with funding levels at 10 percent or less, many fine investigators have 
lost their support, few will take risks, and the pace of discovery will 
fall dramatically.
    In the March 23, 2007 issue of Science magazine, Senator Arlen 
Specter is quoted as asking the reasonable question ``What's going to 
happen to NIH if the budget is cut by $500 million?'' The answer is 
that the number of publications from NIH-sponsored research will 
decline accordingly, by about 5 percent, but innovation will be stifled 
across the board. The chilling effect of funding cuts ripples through 
the system, deterring bold action and creativity on the part of 
established investigators, and discouraging young scientists from 
entering the system. This has already happened. My European colleagues 
have noted a reverse brain drain already occurring now.
    There is another way in which small budget cuts can have a 
disproportionate effect. Research is highly synergistic. One part 
depends on others. For example, my own determination of the RNA 
polymerase structure was critically dependent on the work of hundreds 
of physicists and engineers, on synchrotrons such as that at the 
Stanford Linear Accelerator and on cutting-edge photon physics.
    Of all the adverse effects of flat-funding or even cutting the NIH 
budget, the disillusionment of young people is the worst. The choice of 
a career in science already represents a great sacrifice. A passion for 
science must be weighed against a long period of training--10 or more 
years of postgraduate study at low wages--and the possibility of no 
career at the end. The importance of young scientists cannot be 
overstated. To paraphrase an illustrious politician, it's the people, 
stupid! Progress in science, and discovery in particular, is the work 
of the best young minds. America has taken pride in the Nobel class of 
2006, present here today. If we do not take action now to restore 
enthusiasm for the pursuit of science, there will be no American class 
of 2026.

Discovery as a Driving Force of Progress
    Much has been said about the value of basic research, and I am sure 
the arguments are well known to you. I would like to add some points 
not so often stated. Scientific medicine is comparatively new, just 
over a hundred years old. The advances already made have impacted the 
lives of us all. Every major advance can be traced to a discovery made 
in the pursuit of basic knowledge, not for a medical or economic 
purpose. Some examples are X-rays, antibiotics, magnetic resonance 
imaging, recombinant DNA, and structure-based drug design. Future 
advances, including the prevention or cure of cancer, AIDS, 
Alzheimer's, and other dread afflictions, will come from new 
discoveries and new information. Efforts currently targeted toward 
these and other worthy ends are unlikely to succeed. I recall the words 
of Lyndon Johnson to the effect of ``life-saving discoveries locked up 
in the laboratory.'' This serious sentiment was mistaken. Application 
of existing knowledge is not the limiting factor. The knowledge itself 
is limiting.
    It has been remarked that we know 1 percent of everything about the 
human body. A small fraction of a percent would probably be more 
accurate. But consider how enormous have been the benefits to our 
health and our economy from what little we know now. Imagine how great 
would be the benefits of knowing the remaining 99 percent!
    There is a further overarching purpose to basic research. An urge 
to explore is a part of our nature. It was a major factor in the 
evolution of our species. It has motivated us to go to the Moon and to 
outer space. The exploration of inner, human space is no less grand. It 
is also an expression of the human spirit.

    Senator Pryor. Thank you. And, by the way, all of your--the 
text of your statements will be made part of the record, so 
we'll--you can submit those for the record.
    Next?

         STATEMENT OF ANDREW FIRE, Ph.D., PROFESSOR OF

          PATHOLOGY AND GENETICS, STANFORD UNIVERSITY

                       SCHOOL OF MEDICINE

    Dr. Fire. Maybe I should just make a couple of comments 
about the value of today's hearing. I think one of the things 
that's important to communicate is the enthusiasm that we've 
seen today in the Senate and the House for science, as an 
enterprise and science as an exploration. That's something that 
young people and young scientists in particular really need to 
hear: the extent to which their work is valued by the society 
as a whole; if they're thinking about a career, the extent to 
which their ideas are needed by those of us already in science 
(particularly as some of us are getting a little bit long in 
the tooth). I hope today's hearing will help to send these 
messages.
    [The prepared statement of Dr. Fire follows:]

 Prepared Statement of Andrew Fire, Ph.D., Professor of Pathology and 
            Genetics, Stanford University School of Medicine

    Senator Inouye, Members of the Committee, ladies and gentlemen. 
Thank you for the invitation today to speak on science and its value to 
our society. This is a certainly a worthy topic for discussion in such 
a forum and I hope that my comments will be helpful in stirring up 
debate and discussion.
    Before we consider the value of science, we should first consider 
the goals of the scientific enterprise in this country.
    Although each individual scientist brings a unique set of goals to 
their work, certain themes run throughout the scientific community and 
elsewhere:

  <bullet> Every American and every citizen of the world should have 
        the opportunity to live a full and complete life without the 
        ravages of tragic disease.

  <bullet> Every American and every citizen of the world should have 
        access to sufficient resources and energy to fulfill their 
        potential as individuals and as members of society.

  <bullet> Every American and every citizen of the world should have 
        the opportunity to live in a world where they are safe from 
        threats of terrorism, war, and other violence.

  <bullet> Our children, our grandchildren, and generations to come 
        should have opportunities that are comparable to the best that 
        our current society has to offer.

    Scientific progress is by no means the only component in pursuing 
these goals. It is nonetheless a critical part. As our world inevitably 
changes, we will need to understand how these changes can affect our 
lives. As we become capable of greater manipulation of our environment, 
so questions of appropriate behavior, balance and sustainability become 
critical. We are at a turning point where technology and science will 
underlie most of the major decisions made by individuals, groups, and 
societies. There is no turning back from this.
    Before we can talk about the value of science, we need to talk 
about limitations.

  <bullet> Science can help us to learn how the world works. Science 
        can inform our decisions by allowing us to predict, albeit 
        imperfectly, the concrete consequences of proposed action. 
        Science and technology allow us to manipulate the world within 
        us and around us using an ever-expanding array of tools.

  <bullet> Science can't, shouldn't, and doesn't supplant our value 
        systems. The value we place on human life is not a scientific 
        calculation. Likewise, the many issues we debate as a society: 
        our allocation of resources between the young and the old, our 
        definitions of the beginning and end of life, our ways to 
        prioritize the individual and the society, our allocation of 
        effort toward long term maintenance of the human race; all of 
        these rely on fundamental value systems outside of and beyond 
        the scientific enterprise. Although scientific data (from 
        molecular biology to theoretical physics to economics) can in 
        some case inform ongoing debates as to the material 
        consequences of each choice, the eventual decisions must come 
        from our values and value systems.

    Before we can talk about the value of science, we need to talk 
about opportunities.
    From a portfolio too large to summarize, here are a few.

  <bullet> A dedicated war on cancer has been a flagship of the 
        American scientific enterprise for the last 36 years. Inroads 
        toward improving treatment of many types of cancer have been 
        made in this interval, often based on a pipeline model that 
        starts from investigation of fundamental biology and continues 
        through careful clinical trials. The pipeline is by no means 
        swift, but the initial results have made a difference between 
        life and death, and between hope and despair, for millions on 
        young and old people. Despite these advances, cancer still 
        takes a devastating toll on individuals and families alike. We 
        know that we can do more.

  <bullet> Infectious disease was declared to be a ``closed book'' in 
        the 1960s, leading to a shift away from the commitment of this 
        country to our public health agencies. This turned out to be 
        tragically misguided. We now understand that new epidemics of 
        infectious diseases are an intrinsic aspect of the dynamically 
        connected society we live in: Flu, AIDS, SARS, Tuberculosis, 
        Malaria and many more that we can only speculate on. Our 
        capabilities for rapidly identifying and tracking infectious 
        disease have never been better. Still, I am scared for the 
        future. We know that we can do more.

  <bullet> Clean, safe, and renewable, energy production may become the 
        most pressing economic, scientific, technical, and political 
        challenges of the 21st century. Science has provided an armful 
        of possible contributions in the form of new sources and 
        dramatically improved efficiencies. Despite the recent 
        burgeoning of a new energy industry, an upcoming global crisis 
        in energy availability and in the consequences of our current 
        use patterns seem virtually certain. We know that we can do 
        more.

    Before we can talk about the value of science, we need to talk 
about some of the challenges.

  <bullet> We do not train enough scientists, engineers, or doctors. We 
        do not train enough teachers. To maintain a technologically 
        driven society and to meet the challenges ahead, we need to 
        vastly increase the number of technically trained individuals 
        ready to work in all areas. Our needs in the area of science 
        education are evident at all levels: in elementary, middle, and 
        high schools, in college, graduate, and professional schools, 
        in continued training of our scientific workforce, and in the 
        sophisticated scientific training that the general public will 
        need to make rational decisions. In none of these areas are we 
        completely lost. Education in this country has a remarkable 
        history. Many of our institutions are unparalleled in their 
        quality anywhere in the world. At the same time, many of our 
        young people never get the chance to make contributions that 
        could uniquely benefit the society because their communities 
        lack the needed educational opportunities. This is not an area 
        that we can afford to ignore. Investment in education is an 
        investment in our future. A neglect of this opportunity at any 
        level would be a colossal mistake.

  <bullet> The critical early discovery stages of the developmental 
        ``pipeline'' for science and technology often take place, by 
        nature and by necessity, in universities and non-profit 
        research centers. Research of value in such open environments 
        has only been possible with public support of Federal agencies. 
        This research has driven both innovation and discovery in 
        American science to an extent that the scientific enterprise in 
        the U.S. is truly and uniquely a societal effort. In this realm 
        we face a continuous challenge in maintaining a productive and 
        creative scientific enterprise under the inevitably fluctuating 
        conditions of public support. Science in the U.S. has thrived 
        on a competitive granting system, a sink-or-swim arrangement 
        that does a remarkable job in funding the most important and 
        highest quality research while driving the establishment as a 
        whole toward excellence. But how do we handle the inevitable 
        instability in supply and demand, in the cost of research, in 
        the size of the academic workforce, and in policies and outlook 
        of the institutions of higher learning that are partners with 
        the government in making this work? In times of expansion, 
        there is ample room in the system for all types of ideas, all 
        points within the pipeline, and all levels of venture-risk. In 
        times of contraction, we all fear that the next grant review 
        might end our research careers. Clearly, the solution here 
        cannot be an infinite and exponential growth of the public 
        research enterprise. Private support for science can smooth out 
        some of the rough spots, but as a small fraction of the total 
        there is simply not enough private support for more than a 
        token level of stabilization. To allow some stability, 
        interactions between research institutions and Federal funding 
        agencies are crucial: many grantee institutions are finding 
        that their role must now include a clear commitment to bridging 
        support for their faculty, employees, and for ongoing 
        scientific projects, even as they recognize that moving forward 
        will only happen with Federal support. More institutions will 
        realize this over the next few years. At the same time, the 
        great value of continuity in our public investment in science 
        and technology needs to be communicated. We are at a crossroads 
        in this area in the biomedical community with many critical 
        research programs that may not survive the next few years, many 
        creative senior investigators shutting their labs, and many 
        potentially brilliant young investigators afraid to choose 
        careers in a field this unstable.

  <bullet> Discovery-based investigations in academia make up just one 
        segment of the larger scientific enterprise. Even the most 
        important of basic discoveries make their impact through a 
        development process that involves extensive further research in 
        academic settings combined with research and development in the 
        commercial sector. Translation of basic discoveries toward 
        beneficial results relies on additional groups of dedicated and 
        highly trained scientists, physicians, engineers, and others. 
        Fulfillment of the potential from academic discoveries also 
        requires massive investment in the commercial sector, 
        considerable risk-taking, and a real chance that any given 
        project will fail. In the biomedical area, we simply do not 
        know enough about the individual human body or about the 
        diversity in our species to predict the outcome for a proposed 
        new treatment. Clinical trials must be done, they must be done 
        carefully and safely, they are extremely costly, and a fraction 
        give a disappointing result. Given the costs of clinical 
        trials, the vast majority must be carried out in the private 
        sector. When there is success, we have great advances in 
        medicine. Although we also learn from the failures, this is 
        rarely a consolation to the affected shareholders. For 
        commercial translation of scientific discovery to continue 
        there needs to be a reasonable expectation of possible return 
        on investment. Much of this relies on the U.S. Patent system, 
        itself a gigantic and often cumbersome endeavor that like so 
        many of our institutions is both imperfect and the best we 
        have. The patent system doesn't operate in an economic vacuum. 
        For commercialization to benefit society there also needs to be 
        a mechanism where technologies are available at prices that 
        allow accessibility by all Americans who are in need. One of 
        the lessons we may hope to learn over the next few years is how 
        best to incentivize the risk-taking that is essential in 
        commercial technology development while providing new 
        technologies affordably to all who are in need.

  <bullet> As basic and applied scientists in education, academics, 
        government, and industry we can make the greatest positive 
        impact by supporting each others endeavors, training each other 
        in the areas that we know best, and by listening to each other 
        to understand the needs and potential of fields that are 
        unfamiliar.

    Before we can talk about the value of science, we need perhaps most 
urgently to talk about our own responsibilities as scientists.

  <bullet> It is our responsibility to continue a scientific enterprise 
        directed toward improvements for all Americans and for all 
        people everywhere.

  <bullet> It is our responsibility to seek out and pursue areas of 
        inquiry where scientific progress could benefit humanity, 
        whether it benefits a few individuals, a few communities, 
        countries, continents, or the entire human race.

  <bullet> It is our responsibility at each stage of scientific inquiry 
        to integrate our work into the larger scientific community both 
        in the U.S. and worldwide.

  <bullet> It is our responsibility to carry out our research in an 
        ethical, truthful, and open manner and to follow the rules and 
        restrictions set down by our governments and our conscience.

  <bullet> It is our responsibility to maintain a pride in the 
        creativity and uniqueness of our own thought and research, 
        while acknowledging and fostering the ideas and contributions 
        of others.

  <bullet> It is our responsibility as scientists to be leaders in 
        teaching science at all levels.

  <bullet> It is our responsibility to communicate the scope of 
        scientific opportunities and the spectrum of progress to our 
        leadership, to the public, and to our neighbors around the 
        world. At the same time, it is an equal responsibility to 
        communicate the limitations of our work, the challenges that we 
        face in improving the human condition and the risks that come 
        from increased ability to manipulate our bodies and our 
        environment.

  <bullet> The 21st century will bring new challenges, new 
        opportunities, new risks, new technologies, and new 
        understanding. It is our responsibility as scientists to make 
        these work to the benefit of our society and of all humankind.

    We will do our best.
    Thank you Mr. Chairman.

    Senator Pryor. Thank you.
    Dr. Mello?

   STATEMENT OF CRAIG C. MELLO, Ph.D., HOWARD HUGHES MEDICAL 
             INSTITUTE INVESTIGATOR AND THE BLAIS 
     UNIVERSITY CHAIR IN MOLECULAR MEDICINE, UNIVERSITY OF 
                  MASSACHUSETTS MEDICAL SCHOOL

    Dr. Mello. Thank you. Senator, it's an honor to be here. 
And I would like to just make a few brief comments.
    I think we live in, you know, uncertain times, and we have, 
on the other hand, great opportunities. And those are the two 
reasons why we need to continue to invest in science broadly in 
this country.
    Why do you make investments? Well, you invest for uncertain 
futures, for possible, you know, hard times ahead. You also 
invest when you see an opportunity and you don't want to miss 
it. You realize that there's a--some great new discovery that's 
been made, and now it's time to capitalize on that. That's the 
time we live in right now. We have both of those things going 
on.
    We are capable now of tremendous advances in medicine. We 
have the blueprint for the human. We understand now the--every 
single gene that makes a human. And we have technology and 
approaches like RNA interference that allow us to inactivate 
those genes and examine the consequences and study outcomes, 
and even to intervene in diseases at the very basic level of--
the genetic level of disease. This is exciting and breathtaking 
opportunity.
    And so, just at the--just at the moment when we have this 
opportunity, what are we seeing? We've invested in the genome 
sequence. That genome sequence is up on the computers in China 
and every other country. What are we doing? Well, we're not 
investing--we're not investing in that opportunity.
    So, I think, in the life sciences and medicine we really 
have to take another look at what we're doing, because these 
are the sources that will generate wealth and generate new 
innovative companies, the basis--for example, RNAi is already a 
multibillion-dollar industry in this country. These are 
opportunities that are being lost at this moment. So, I hope 
that we can bring that out further in further discussion.
    Thank you.
    [The prepared statement of Dr. Mello follows:]

  Prepared Statement of Craig C. Mello, Ph.D., Howard Hughes Medical 
  Institute Investigator and the Blais University Chair in Molecular 
          Medicine, University of Massachusetts Medical School

    Good afternoon. Mr. Chairman and Members of the Committee, it is a 
privilege to have the opportunity to testify before you this afternoon.
    In a small lab at the University of Massachusetts Medical School 
and a small lab at the Carnegie Institution of Washington, with support 
from the NIH and other private sources, Andy Fire and I made a series 
of observations that have sparked a revolution in our understanding of 
how the genetic information that makes us human is stored and expressed 
inside our cells. Today, as we speak, thousands of scientists in labs 
all over the world are building on these discoveries to understand and 
to develop treatments for human disease, to shed further light on the 
basic functioning of cells, and to study and modify plants, animals and 
microbes important in agriculture, biofuels and other applications 
essential to meeting the many needs of our civilization.
    Mr. Chairman, members of the Committee, we as a nation, indeed we 
humans as a species, are dangerously out of equilibrium with our 
environment. Pressures from over-population and lack of quality medical 
care in third-world countries (and even here in the U.S.) are leading 
to millions of unnecessary deaths each year, deaths from diseases we 
know how to treat, and these medically-underserved populations are 
incubating new, potentially devastating pathogens. Alternative fuels 
and better crops must be developed to support populations that have 
already reached sizes that challenge the very productive capacity of 
the planet. In short, we need a call to arms, a call to fund science 
broadly in this country so that our Nation can face these challenges 
and can continue to lead the world toward a brighter future.
    The discovery of gene silencing by double-stranded RNA--``RNA 
interference,'' or ``RNAi,'' for which Andy and I were awarded the 2006 
Nobel Prize in Physiology or Medicine--was not something that anyone 
was looking for. We knew, based on some early and unexpected laboratory 
observations, that there was something puzzling going on, and we grew 
more excited over time by what we were seeing as we tried to 
understand. RNA interference went from being a puzzle, to being 
understood well enough for us to publish a paper in the prestigious 
journal Nature in 1998, to being applied as a tool for treating human 
disease, to being recognized with the Nobel Prize, in just 8 years. The 
research and the discovery were all the more exciting to us because it 
was all so unexpected.
    This could happen only because we are in an era unprecedented for 
the potential for scientific discovery. The investments in science made 
in the late 1990s and the first years of this century opened vast 
opportunities for science and scientists: universities built research 
labs and trained and hired new young scientists--like myself and Andy--
who in turn made new contributions that other scientists learned from 
and expanded upon. The investments in facilities and training and the 
tools of research were the investments that led to the sequencing of 
the human genome--the mandatory first step in realizing the dream of 
interfering with disease at the genetic level. RNAi has tremendous 
promise for building on the work of the Human Genome Project, but only 
if further research is funded and allowed to continue. Importantly, 
information, the universal currency of science, now flows effortlessly 
and almost instantly around the globe. Consequently, the pace of 
discovery is picking up worldwide, increasing the opportunities for 
discovery but also increasing the competition for U.S. laboratories. If 
we do not increase the U.S. investment to keep pace with these 
opportunities, then we will see future multibillion dollar technologies 
like RNAi discovered and developed abroad. If we don't act now to 
increase science funding, other countries will capitalize on the 
investments we, the American people, have made in funding science over 
the past decades.
    At the University of Massachusetts, we have established an RNAi 
Therapeutics Center to further capitalize on this momentum and our own 
particular expertise in the field of RNAi-based gene silencing. The 
vision for this Center emphasizes facilitating and promoting clinical 
and translational research and ultimately developing the next 
generation of powerful drugs to treat a broad range of diseases 
including cancers, Alzheimer's, diabetes, heart disease, and many other 
areas in which my renowned UMass colleagues have already dedicated 
years of work.
    At UMass, there is a strong belief that science, and research, do 
truly matter, for a much larger reason than prizes or prestige: science 
matters because no one knows from where, or how, or based on what 
unpredictable series of events, the next breakthrough might come, and 
there has never been a moment in human history with more opportunity or 
greater need for advances in the life sciences than right now. This 
isn't science for the sake of science, but science for the sake of 
medical advances and lives to be saved.
    This is just the beginning! The confluence of the energetic 
students and innovative young scientists trained in the last two 
decades, with the investment in facilities and resources, combined with 
the discoveries of the past few years, all flow together to create a 
perfect moment of opportunity. But just at the time when we should be 
investing in science at an unprecedented level, we are not. Just at the 
moment when we should be capitalizing on the investments of the past 
decade, funding for basic research is in decline. If Andy and I had 
been faced with today's funding climate 10 years ago when we applied 
for support for the work that led to the discovery of RNAi, I don't 
think we would have received that support. What other discoveries--what 
work like RNAi, what research that will advance it in ways we can't 
even imagine--will be missed, because we stepped back from the 
opportunity?
    Thank you. I will be happy to take your questions.

    Senator Pryor. Dr. Mather?

   STATEMENT OF DR. JOHN C. MATHER, CHIEF SCIENTIST, SCIENCE 
                   MISSION DIRECTORATE, NASA

    Dr. Mather. Yes, hi. Thanks for having us all come to talk 
with you. We hope we can answer your questions.
    I'll just say a few things about what I've seen in my life 
that seem important to the future of the Nation.
    Now, one is the astonishing opportunities that we now have. 
Astronomy has brought forward the possibility of knowing the 
history of the universe from the beginning until the formation 
of planets like ours. So, this huge enterprise now enables us 
to tell our own story and discover our history. And I think 
it's a very exciting thing for students to see this as the 
amazing intellectual challenge that we now have. And it's 
deeply important to people's sense of who they are, to know how 
we got here. And there are so many things to know about it from 
astronomy before we hand it over to the life sciences to say, 
``Well, what else can you tell us about that?''
    So, it's exciting for students. It's a wonderful way to 
reach out to the public to get youngsters excited about 
science. And it was important to me, it still is important to 
me. I'm doing what I can. So, there's the pull of people into 
science and technology, to show them the excitement.
    There's another thing that we do to try to get people in, 
and that's to make sure they get good education opportunities 
and their requirements and tests. And I think that's a little 
harder to manage, because I think threats of punishment are 
less effective than enchantment and excitement about science.
    But, third, I think there's a huge opportunity that we now 
have to tell our young workforce what's going to happen. You 
know, if they see that funding is steady or going up with 
inflation, then they say, ``Aha, there's a career for me in 
science, if I want to do that.'' And so, it's very important 
whether we've got our foot on the accelerator or our foot on 
the brake, because it affects the whole future of our 
workforce.
    So, kids are smart, they can tell whether science is going 
to be a great career for them or not. And so, you've heard 
specific examples about biologists who have to spend many years 
being postdocs, and then they don't know if they'll ever get a 
job. I think it starts long before that. Kids in grade school 
and high school can sense whether there's a life for them in 
the technical careers that we find so important for our 
country.
    So, thanks.
    [The prepared statement of Dr. Mather follows:]

      Prepared Statement of Dr. John C. Mather, Chief Scientist, 
                   Science Mission Directorate, NASA

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear today along with the other recipients of 
scientific Nobel Prizes, all representing the tremendous scientific 
achievements that the United States can make to the benefit of the 
world. I currently serve as the Chief Scientist for the Science Mission 
Directorate at NASA Headquarters, and am also the Senior Project 
Scientist for the James Webb Space Telescope at NASA's Goddard Space 
Flight Center.

My Inspirations
    I am very proud of the support that our great Nation has given to 
science over the years, from both private and public sources. Benjamin 
Franklin was one of the great scientists of his time, and he put his 
personal credibility on the line to persuade the King of France to 
support the colonists in their fight for freedom. Thomas Jefferson sent 
off the Nation's first scientific expedition to explore the route to 
the Pacific Ocean. Industrial tycoons and taxpayer support in the 19th 
and 20th century built libraries and museums and the world's greatest 
ground-based telescopes, establishing U.S. leadership in education for 
the people and in astronomy in particular. When I was eight years old, 
I visited the American Museum of Natural History and the Hayden 
Planetarium in New York, and I was amazed to imagine that scientists 
could now hope to find out how the universe began, how volcanoes and 
earthquakes work, and how life might have come to be possible here on 
Earth. When the Sputnik was launched, the Nation saw once again that 
science was essential to our security, and suddenly public schools had 
science fairs, high school students went off to National Science 
Foundation-supported college courses over the summer, and NASA was 
formed to respond to the new challenge. Only a few years later, 
President Kennedy launched the Apollo program to show that the U.S. as 
a free nation was also a leader of science and technology. And James 
Webb, NASA's second Administrator, persuaded President Kennedy that the 
Apollo program should include serious scientific work for the good of 
the U.S., and was not just a foreign policy statement.
    I was a young graduate student at the University of California in 
Berkeley when our astronauts reached the Moon, and soon after that I 
was working on measuring the cosmic microwave background radiation for 
my thesis research. This is the residual heat radiation of the great 
Big Bang that happened 13.7 billion years ago. I was supported in this 
work by several Federal agencies, and by a private scholarship from the 
Fannie and John Hertz Foundation. Only 6 months after completing my 
Ph.D. in 1974, I was organizing a proposal for submission to NASA to 
measure this radiation much better. As it turned out it was an 
excellent idea, and turned into a successful satellite mission called 
the Cosmic Background Explorer. Fifteen years later, in 1989, it was 
launched, and we immediately found very strong evidence confirming the 
Big Bang theory. And just 17 years after that, our work won the Nobel 
Prize in Physics for 2006. I believe that this prize recognizes the 
unique capability that the U.S. possesses, to put scientists and 
engineers together to build new tools that have never existed before, 
to discover what has never been known before.

NASA's Role in Promoting Science, Technology, Engineering, and 
        Mathematics
    As a nation, we must encourage our students to pursue opportunities 
in science, technology, engineering, and mathematics (STEM). NASA is in 
a unique position to offer groundbreaking opportunities in these areas 
to engage students and provide long-term career paths. The President's 
Vision for Space Exploration calls upon NASA to conduct robotic and 
human exploration of the Moon, Mars and other destinations, to conduct 
robotic exploration across the solar system, and to conduct advanced 
telescope searches for Earth-like planets around other stars. Other 
Presidential directives and legislative mandates instruct NASA to 
conduct Earth observation and scientific research and to explore the 
origin and destiny of the universe.
    As a critical component of achieving NASA's mission, the Agency's 
education activities reflect a balanced and diverse portfolio of 
Elementary and Secondary Education, Higher Education, e-Education, 
Informal Education, and Minority University Research and Education. 
Through its unique mission, workforce, and facilities, NASA is leading 
the way to inspire interest in STEM careers, as few other organizations 
can. Our efforts have also made significant impacts in engaging 
underserved and underrepresented communities in STEM.
    Accordingly, we are preparing the pathway for the next generation 
with great anticipation. These ``explorers and innovators of the new 
millennium'' must fully represent our Nation's vibrant and rich 
diversity. Furthermore, we will support our Nation's universities, 
colleges and community colleges by providing exciting research and 
internship opportunities that ``light the fire'' and ``fuel the 
passion'' for a new culture of learning and achievement in STEM.
    NASA's educational activities are designed to inspire, engage, 
educate, and employ our Nation's talented youth. As contributors to 
achieving the Nation's goals, NASA is committed to three primary 
objectives to help improve the state of STEM education in our country:

        1. Strengthen NASA and the Nation's future workforce--NASA will 
        identify and develop the critical skills and capabilities 
        needed to ensure achievement of the Vision for Space 
        Exploration, science, and aeronautics.

        2. Attract and retain students in STEM disciplines through a 
        progression of educational opportunities for students, 
        teachers, and faculty--NASA will focus on engaging and 
        retaining students in STEM education programs to encourage 
        their pursuit of educational disciplines critical to NASA's 
        future engineering, scientific, and technical missions.

        3. Engage Americans in NASA's mission--NASA will build 
        strategic partnerships and linkages between STEM formal and 
        informal education providers. Through hands-on, interactive, 
        educational activities, NASA will engage students, educators, 
        families, and the general public to increase America's science 
        and technology literacy.

    Within NASA science, a broad spectrum of education activities are 
sponsored, ranging from kindergarten to postgraduate levels. All NASA's 
science missions and programs must have an education and public 
outreach component. Through a competitive, peer-review selection 
process, NASA provides funding dedicated to education and public 
outreach to researchers. NASA also sponsors graduate and post-doctoral 
fellowship opportunities. In addition, the Agency is looking for new 
ways to provide increased opportunities for students to gain greater 
experience developing and launching their own science instruments, 
either in conjunction with science missions or through its suborbital 
rocket and balloon programs.
    NASA is truly a premier Agency in its ability to reach out and 
inspire students. This is exemplified in part by the fact that NASA 
alone was responsible for 11 percent of Science News magazine's top 
stories--covering all fields of science--for 2006; this is an all-time 
record in the 34 years that this metric has been tracked. Important 
findings resulting from NASA's science programs ranged from new 
observations of familiar phenomena like the ozone hole, hurricanes, and 
rainfall, to the discovery of lakes of organic hydrocarbons on Saturn's 
planet-sized moon Titan, to the identification of new classes of 
planetary abodes across our galaxy, to the study of the Sun's magnetic 
field, showing it to be more turbulent and dynamic than previously 
expected.
    In October 2006, NASA's twin STEREO spacecraft were launched to 
help researchers construct the first-ever three-dimensional views of 
the Sun's atmosphere. This new view will improve our abilities in space 
weather forecasting and greatly advance the ability of scientists to 
understand solar physics, which, in turn, enables us to better protect 
humans living and working in space.
    From across the solar system, NASA's spacecraft have provided 
startling new insights into the formation and evolution of the planets. 
Images from the Mars Global Surveyor have revealed recent deposits in 
gullies on Mars, evidence that suggests water may have flowed in these 
locations within the last several years. The Mars Reconnaissance 
Orbiter, which began its primary science phase in November 2006, has 
not only taken extraordinary high resolution images of Mars at 
resolutions greater than any other mission to-date, but has taken 
incredible images of Opportunity and Spirit on the surface, and helped 
the Phoenix lander find a safe landing area. From its orbit around 
Saturn, the Cassini spacecraft recently found unexpected evidence of 
liquid water geysers erupting from near-surface water reservoirs on 
Saturn's moon Enceladus.
    Additionally, the Wilkinson Microwave Anisotropy Probe (WMAP) 
Explorer mission, which I helped to propose, was able to gather new 
information about the first second after the universe formed, while the 
Chandra X-ray Observatory provided new and strong evidence of dark 
matter, and the Hubble Space Telescope identified 16 candidate planets 
orbiting other stars near the center of our galaxy.
    Using instruments flying closer to Earth, NASA investigators flew 
29 separate scientific instruments to 60,000 foot altitudes aboard 
NASA's WB-57F Canberra aircraft in the Costa Rica Aura Validation 
Experiment (CAVE). These airborne measurements, coupled with 
measurements from the orbiting Aura spacecraft, shed light on how 
ozone-destroying chemicals get into the stratosphere over the tropics 
and how high-altitude clouds affect the flow of water vapor--a powerful 
greenhouse gas--in this critical region of the atmosphere. This is 
fundamental basic work on the physical and chemical processes of the 
atmosphere.
    Examples of important successes in our data analysis programs are 
also diverse. Astronomers combining data from the Hubble Space 
Telescope with data from ground-based and other space-based telescopes 
have created the first three-dimensional map of the large-scale 
distribution of dark matter in the universe. NASA researchers also 
found organic materials that formed in the most distant regions of the 
early solar system preserved in a unique meteorite that fell over 
Canada in 2000. And, using a network of small automated telescopes, 
astronomers have discovered a planet orbiting in a binary star system, 
showing that planet formation very likely occurs in most star systems. 
In our home solar system, scientists predicted that the next solar 
activity cycle will be 30-50 percent stronger than the previous one and 
up to a year late. Accurately predicting the sun's cycles will help 
plan for the effects of solar storms and help protect future 
astronauts. And a breakthrough ``solar climate'' forecast was made with 
a combination of computer simulation and groundbreaking observations of 
the solar interior from space using the NASA/ESA Solar and Heliospheric 
Observatory (SOHO).
    As these and other results about our world and the universe pour 
in, NASA also continues to develop and launch our next generation of 
missions, and to support a vigorous scientific community via research 
and data analysis funding. In total, NASA currently is developing or 
flying a total of 93 space and Earth Science missions--far more than 
all of the other space agencies of the world combined. The Agency also 
supports over 3,000 separate research investigations in its science 
Research and Analysis programs, spending a total of approximately $600 
million annually on scientific data analysis, modeling, and theory 
across the four disciplines of Earth and space science. Undergraduate 
and graduate students are active participants in these efforts.

Conclusion
    We must encourage every segment of our population--girls and boys 
alike--from every walk of life, of every color and creed, to reach out 
and prepare for the opportunities of the 21st century. Building a 
pipeline of science and engineering talent to serve in the coming 
decades as we implement the Vision for Space Exploration to continue 
America's pre-eminence in space and aeronautics research and 
development can and must be done. NASA's mission is one of dreams, 
vision and exploration--characteristics that are ingrained in the 
American spirit and the underpinning of innovation and economic 
competitiveness. We intend to continue turning heads across the world 
by developing space missions and supporting scientific research that 
rewrites textbooks in all of our science disciplines, thus inspiring 
the next generation of students.
    Again, thank you for the opportunity to testify today. I would be 
pleased to respond to any questions you or the other Members of the 
Subcommittee may have.

    Senator Pryor. Thank you.
    Dr. Smoot?

      STATEMENT OF GEORGE SMOOT, Ph.D., SENIOR SCIENTIST,

        LAWRENCE BERKELEY NATIONAL LABORATORY, PROFESSOR

         OF PHYSICS, UNIVERSITY OF CALIFORNIA, BERKELEY

    Dr. Smoot. Senator Pryor, Senator Stevens, distinguished 
members of the Committee, including my home-state Senator 
Barbara Boxer, thank you for holding these important hearings 
and for recognizing the importance of a vigorous scientific 
enterprise for America's health and vitality. I share that 
interest, and I want to support your efforts.
    I am a senior scientist, both at a national laboratory and 
at a university, and I have had a tremendous positive 
experience from both of those institutions. They're both very 
important parts of the scientific enterprise and to the 
country. I may be unique in the sense that I have split funding 
from three of the Federal agencies--the Department of Energy, 
NASA, and NSF. All of these have been vital in the development 
of scientific advancement and research. Each has fulfilled a 
vital role.
    I encourage you to think about a broad spectrum, of the 
funding of science, because all of science is a fabric, and we 
never know what discoveries may arise. You mentioned the human 
genome which came originally from physical discoveries and 
computer science discoveries, and then were applied in the 
medical region. You have example after example of that.
    John and I both were interested in studying the universe. I 
recalled during my childhood, as I started to ask the question, 
``How did we turn into scientists? How did we get into this 
channel?'' It goes back to riding in my family car, and seeing 
the Moon out the back window, and the Moon follows us across 
the state, and so I asked my parents, ``How does that work?'' 
And they explained that it follows every car.
    [Laughter.]
    Dr. Smoot. That was just so startling to me that I've 
always looked at the sky and looked at the world as something 
wonderful that could be explained rationally. Even though I've 
learned a lot since then, I still have that curiosity. I'm 
thrilled to think that young kids still do too, that they're 
asking the same kinds of questions. I believe that preparing 
the next generation is extremely important. I'm using part of 
my resources and stature as a Nobel Prize winner to try and 
start a teacher's academy for middle and high school science 
teachers, and to try to bring about the public outreach of 
science in an integrated way, but also bring in the next 
generation of scientists, engineers and computer scientists, 
because the whole infrastructure really matters. Between the 
combination of steadily rising Federal funding in the 
environment and the appreciation of how important science is to 
the Nation, whether in solving crises or just making economic 
prosperity work, this will encourage young people to dedicate 
their lives to try to make this a better world.
    [The prepared statement of Dr. Smoot follows:]

 Prepared Statement of George Smoot, Ph.D., Senior Scientist, Lawrence 
   Berkeley National Laboratory, Professor of Physics, University of 
                          California, Berkeley

    Chairman Kerry, Ranking Member Ensign, and distinguished Members of 
the Committee. Thank you for holding this important hearing and for 
recognizing the importance of science and scientific achievement to 
America's health and vitality. It is my honor and pleasure to 
participate in this inquiry into the critical role that science plays 
in the life of our Nation and the world.
    My name is George Smoot and I am a Senior Scientist at Lawrence 
Berkeley National Laboratory and a Professor of Physics at the 
University of California Berkeley. I am perhaps unique in having 
received roughly comparable and vital support from the Nation's three 
primary physical science agencies: DOE, NASA and NSF. As a scientist at 
Berkeley Lab and a professor at UC Berkeley, I benefit from the great 
advantages provided by a world-class national laboratory and one of the 
world's great research universities. Both play critical roles in 
promoting America's and the world's scientific advancement through 
internationally recognized research, rigorous education of future 
scientists, and unique scientific tools and resources. Both have also 
played critical roles in my career as an astrophysicist, and in my work 
that led to the 2006 Nobel Prize in Physics, which I shared with my 
distinguished colleague and fellow witness here today, John Mather.
    I was awarded the Nobel Prize for my role in discovering 
experimental evidence for the ``Big Bang,'' the primeval explosion that 
began the universe. This evidence was a map of the infant universe that 
revealed a pattern of miniscule temperature variations--``hot'' and 
``cold'' regions with temperature differences of a hundred-thousandth 
of a degree. These temperature variations, created when the universe 
was smaller than the smallest dot on a TV screen, are thought to be the 
primordial ``seeds'' that grew into the universe of galaxies and galaxy 
clusters we see today. The ``map'' of the universe that we created was 
produced in 1992 from data gathered by NASA's Cosmic Background 
Explorer (COBE) satellite.
    It was exciting work. It was an exciting time. It was a time that 
ushered in what some call the Golden Age of Cosmology.
    Since our COBE results, more amazing discoveries have been made. We 
continue to make maps of the universe with increasing accuracy, 
revealing more than we ever imagined. We now know that there is 
something that makes up roughly three-quarters of our universe about 
which we have no clue as to what it is. We call it Dark Energy for lack 
of a better name, and it is driving the universe to expand at an 
accelerating speed, contrary to the expected force of gravity slowing 
the expansion down and ultimately pulling the universe back in on 
itself.
    New maps also reveal the existence of Dark Matter. Although it is 
estimated to make up a fifth of the universe, we also don't know what 
it is. Perhaps this unknown matter will someday be viewed through 
particle physics experiments, or be revealed through even more accurate 
maps of the universe. What we are sure of is that there will be new 
discoveries that continue to surprise us, yet will lead us closer to a 
fuller understanding of the universe and the properties of matter and 
energy and space and time.
    The discoveries that John and I made, as well as those made by 
others, are not the result of singular endeavors. They rest on the 
shoulders of many individuals and are made possible by funding from 
more than one Federal agency. It certainly took a large group of 
committed scientists, theorists, technicians, and engineers to uncover 
the secrets of the infant universe. And, it took significant Federal 
funding.
    America's innovation stems from the creativity that institutions 
like Berkeley Lab, UC Berkeley, U Mass, Stanford and Goddard Space 
Flight Center encourage and nurture in their students, researchers and 
professors. It stems from the intellectual freedom that only inquiry at 
the most basic and theoretical level of science provides. It stems from 
the commitment of Federal investment in the education of our children, 
the research of our investigators, and the development and maintenance 
of our scientific infrastructure. Science is an organic enterprise and 
does not exist in a vacuum. Science flows from its environment and is 
nurtured by steady funding and new young educated minds. If adequately 
supported these ingredients incubate and grow. They lay the foundation, 
the seeds, for the next generation of discoveries and innovations.
    My early work as a post-doctoral physicist at Berkeley Lab was 
funded through the United States Department of Energy's Office of 
Science. I had the very great fortune of working with legendary 
scientists. Nobelists like Luis Alvarez encouraged me to ``think big'' 
and then gave me the space and freedom to do so. It was the funding 
from DOE that provided the foundation that allowed my work to progress. 
It enabled me to build my expertise and to organize the necessary team 
to tackle the hardest questions.
    One point that I hope to leave with you today is that the U.S. 
Department of Energy is the major funder of the physical sciences in 
the United States. What does that mean? It means that DOE is the 
largest investor in the development and maintenance of our Nation's 
scientific resources, both human and infrastructure, in the research 
fields of chemistry, astronomy, all forms of physics, material 
sciences, and more. From its national scientific user facilities, such 
as synchrotron light sources, electron microscopes and particle 
accelerators, to programmatic research funding at its national labs and 
at research universities, DOE is supporting the underpinnings of 
American innovation.
    The Department of Energy has also played a unique and critical role 
in training America's scientists and engineers for more than 50 years. 
I am an example of this support, as are many scientists of my 
generation. These scientists and engineers have made major 
contributions to the United State's economic and scientific pre-
eminence. The nation's grand challenges, such as our current and future 
energy and environmental needs, will only be solved through scientific 
and technological innovation developed by a highly skilled workforce. 
The DOE's Workforce Development for Teachers and Scientists program is 
a catalyst for the training of the next generation of scientists. 
Through this program DOE national laboratories provide a wide range of 
educational opportunities for more than 280,000 educators and students 
on an annual basis. It is particularly important that we continue to 
extend and expand such opportunities to our students and, critically, 
to our teachers of science, technology, engineering, and mathematics. 
The entire science education infrastructure from K-12 through 
undergraduate students, and graduate students to postdoctoral scholars 
is the pipeline of future scientists and technologists. The educators, 
mentors and role models are the pumps that bring them along, prepare 
and excite them for their challenging and rewarding work.
    However, as I intimated earlier, research and scientific training 
is underwritten by more than just funding from DOE. In my case, I have 
been honored to receive funding from the National Science Foundation 
and, of course, from NASA. Each agency played a crucial role in my 
development as a scientist and in the development of the programs on 
which I worked.
    My group has received substantial funding from the NSF over many 
years that included support for graduate students and postdoctoral 
scholars, as well as access to NSF sites and facilities, such as the 
South Pole station. In fact, NSF funds probably exceeded or matched DOE 
funding of my work over the years.
    In the mix of Federal support for my research, DOE funding served 
two incredibly important roles: (1) stability and longer-term risk, and 
(2) development of novel instrumentation later used on NASA platforms 
(aircraft, balloons, satellites) and at NSF sites. DOE provided steady 
and reliable program funding that allowed development of new concepts, 
instrumentation and ultimately fields. NSF and NASA funding was in 
general for specific projects or relatively short, and well-defined, 
research objectives (often prototyped with DOE funds). The NSF could be 
counted on to be interested in funding specific observations or 
developing new approaches that were linked to their program 
disciplines. Like DOE, NSF also liked to involve graduate students and 
undergraduates in research and often provided modest additional funds 
for that purpose. This activity helped funnel a number of bright young 
students on into graduate school and Ph.D. programs.
    A very critical result of NSF funding was the creation of the 
Center for Particle Astrophysics. This center revolutionized the 
approach to the field. Now essentially every major first-rate 
university has a cosmology center modeled after it. The Center brought 
together a number of groups and institutions to push forward our 
understanding of Dark Matter and the accelerating universe, leading to 
the realization that Dark Energy makes up the majority of the Universe. 
The vibrancy of the combined programs of science and people, in 
addition to education and outreach programs, had a profound effect of 
productivity and creativity. It impressed all who saw it. Because of 
its success, the NSF has continued and expanded their center programs.
    This illustrates my second point that I hope you will take to heart 
and leave here today remembering. America's scientific leadership and 
capacity for innovation stem broadly from the Federal Government's 
investment in a rich portfolio of research. Therefore, it is critical 
that all Federal funding of research be increased.
    The scientific community is very pleased to see both the 
Administration's and the Congress' commitment to doubling the budgets 
of the NSF, the DOE Office of Science and of NIST. However, NASA's 
science budget, the NIH and DOD's scientific programs play important 
roles as well and should not be overlooked. Passage last week of Senate 
Bill 761, the America COMPETES Act, was a vital development and your 
work on this milestone legislation is recognized by all of us 
interested in American science. However, more must be done to raise the 
level of research funding significantly higher, and for all Federal 
research agencies.
    The third and final point that I want to leave you with, is that 
Congress and the Administration must stay vigilant in your commitment 
to long-term, basic science that has no obvious immediate commercial 
application. Without this foundational research the really big, 
transformational discoveries and leaps in understanding will not occur. 
Basic science is the beginning of the innovation pipeline that leads to 
revolutionary technologies.
    Take the prospects for advancements in energy research. Although 
progress in the effectiveness and cost efficiency of existing 
technologies, such as current methods of ethanol production and 
silicon-based photovoltaic cells, will happen, many believe that their 
learning curves are flattening out and that improvements will not get 
us to a place where significant inroads are made in carbon emission 
reductions or energy independence.
    However, some of the most promising avenues for developing new, 
clean and revolutionary energy technologies are solutions rooted in 
fundamental basic science. For example, the DOE Office of Science is 
funding new bioenergy research centers that will investigate all of the 
scientific aspects of developing new cleaner fuels from biomass. We 
have known for a long time that we could produce liquid fuel from 
biomass; the problem has been that it is prohibitively expensive--we 
had to put the biomass in acid baths to free up the chemicals and then 
treat the resulting liquid, consuming a lot of energy while doing it. 
The research challenge is to find, and perhaps design and synthesize, 
new biological organisms and enzymes that will make the conversion 
process cheap enough to compete against the cost of gasoline. The new 
tools developed with the support of the Office of Science in genomics, 
computer modeling and synthetic biology put this within our reach, but 
much more work needs to be done.
    In another example, the Office of Science is funding advanced 
research in nanotechnologies which offer the best hope for developing 
new energy storage systems that will be critical for making solar and 
wind economically attractive alternatives. Why is new nanotechnology so 
important for the future growth of solar and wind energy? These 
resources are available only while the sun shines or the wind blows, 
and that may be at times when they are not needed. Inexpensive ways to 
store that energy would make them useful resources all of the time. And 
why is nanotechnology so important to developing new energy storage 
systems? Our future success in energy storage depends on being able to 
build batteries that will be able to hold much higher charges, and be 
discharged much more rapidly, than present ones do; the way to achieve 
these advances is through advanced nanotechnology research--again, 
fundamental basic science.
    In conclusion, I applaud the renewed focus that the Senate, the 
House and the Administration have placed on the need to maintain 
America's international competitiveness through nurturing innovation. 
Innovation, like science, is organic. No one knows where the next big 
``breakthrough'' will occur and where it will lead us. No one can guess 
who will be the next young ``Einstein'' or ``Edison'' that takes the 
world in new directions. Therefore, it is critical that every child, 
every student, every researcher and every creative idea have the 
potential to blossom. You, as the stewards of our government, have the 
power of the purse and the legislative pen that can ensure America 
continues to invest in a broad portfolio of scientific endeavors, more 
aggressively invests in math and science education, provides the 
updated scientific infrastructure needed for 21st Century science, and 
encourages a research environment that embraces risks and awards 
creativity.
    In times of crisis the Nation mobilizes its science enterprise. 
Whether in response to hostile outside threats, challenges to our 
preeminence, such as in the case of Sputnik, or as with today's energy-
based climate and economic security concerns, the Nation turns to 
scientific and technological solutions. For future crises it is 
critical that the country keep a broad, vital and strong science 
infrastructure.
    Even without the grand challenges to address, science impacts 
everyday life and makes our world a better place. It is clear to all 
that the economic prosperity, personal health, and world leadership of 
the country and its population rests upon the products of basic 
scientific research and the vitality of our science enterprise. The 
country's place in the world will directly reflect the level of its 
science. Any country that wishes to be a world leader must be a world 
leader in science.
    Thank you, again, for the opportunity to provide testimony on this 
important topic.

    Senator Pryor. Let me, if I may, lead off on the questions, 
but what I'd like to do, for the Senators here, is, I'd like to 
have a free-flowing question-and-answer. I wasn't going to 
really do rounds, rather just a general discussion of things.
    Likewise, my first question's just a question for the panel 
generally.
    I understand, by the way, that we are going to have a vote 
around 4:30. I just got word on that. So, we'll figure that out 
when the time comes. We may have to slip out for a few minutes 
and we'll figure out if we're going to recess the hearing or 
exactly what we'll do.
    Let me ask, I think that sometimes Congress and the public 
have a difficult time really understanding the importance of 
basic research. It's just not readily apparent to people 
sometimes. If I can explain to people in my state or people 
around the country, why it's important and what will be 
happening over the next 5 years, some of the emerging 
discoveries, and the applications of what you all do. Help us 
by explaining the significance of your research and why it's 
important to the quality of life, not just here in the U.S., 
but around the world, also maybe what products or you know, 
what may flow from that out on the marketplace.
    I'll just throw that out to everybody.
    Dr. Kornberg. Let me explain in the following way. A good 
example that everyone knows about are the benefits of modern 
medicine. And there are few, if any, of us who don't either owe 
our health, or even the lives, of family members to modern 
medicine. It's worth bearing in mind it's only 100 years old. 
It wasn't much over 100 years ago, the only cure for disease 
was bleeding. And then, if you look back at the history over 
the last hundred years, what you discover is that virtually 
every major medical advance was made by the pursuit of 
knowledge for its own sake, and not for the purpose of 
advancing medicine. And to give you some examples: X-rays, 
antibiotics, medical imaging--for example, magnetic resonance 
imaging--recombinant DNA. These advances were all due to the 
pursuit of knowledge for its own sake. There is no example that 
I know of, or that I believe can be cited, to the contrary.
    So, the lesson of the history is clear: If you wish to 
improve human health in the future, there is one, and only one, 
way to do it. If you wish to cure AIDS, if you wish to cure 
cancer, if you wish to cure Alzheimer's, it will not be 
accomplished by a targeted approach directed toward the ravages 
of that disease. It will only be accomplished by the unfettered 
pursuit of basic knowledge. Discoveries will be made, quite 
unintentionally, that eradicate these diseases.
    Dr. Fire. But one aspect of--if I may, one aspect of this 
that's worth stressing is that, as scientists we have a 
responsibility, when we talk about the consequences of our 
research, to talk about both the wonderful possibilities and 
also the limitations and challenges. And so, anytime we say, 
``This is what's going to be happening in 5 years,'' if we knew 
what was going to be a good treatment for a disease, we'd want 
it now. But of course there's always a great deal of 
uncertainty to anything in the future.
    One of the nice examples of this is the monoclonal antibody 
industry. This industry comes from a discovery in 1975 which 
resulted in the Nobel Prize for the British and German 
scientists. They developed monoclonal antibodies: very specific 
molecular machines that would target individual molecules. 
Everybody immediately thought, ``These will be great as 
therapeutics.'' And there was a lot of ``hype,'' so to speak. 
There was a lot of excitement. But initially it didn't work. We 
didn't know enough about the immune system at the time to be 
able to make monoclonals work as therapeutics. Years went by 
when some great ideas for companies that would start from this 
``tanked''. Fortunately there was research that went on at that 
time that was very successful in the academic sector, because 
the companies that tried to do this weren't successful.
    And then, starting in the mid-1990s, there was enough 
information to make monoclonals work. Now they're a major 
economic component of the biomedical industry. They're also a 
major medical treatment, particularly against different types 
of cancer, against macular degeneration, against other things. 
So, when we talk about the consequences of our research--and 
when others talk about the consequences of their research--it's 
often difficult to predict what's going to happen. And the 
investments that are made now probably aren't going to have an 
effect in 5 years. That, I think, is a realistic statement.
    Senator Pryor. Dr. Smoot?
    Dr. Smoot. Yes, I wanted to elaborate on two medical 
examples, because that's something people relate to.
    First, I want to expand on the earliest one: X-rays. If you 
think that NIH or somebody would have funded Roentgen, who 
discovered X-rays, this did not and would not happen; he was 
trying to study whether radioactivity came from the sun. Why 
would you fund that for medical research? A month after he 
published his paper, the first X-ray machine appeared in the 
first hospital. Three months later, it was in 15 hospitals. It 
was so obvious looking at the picture of his wife's hand with 
the wedding rings and the bones that this is a way to look 
inside people without cutting them open. This was an immediate 
clear application. That's one example of a key medical 
discovery coming from way out in left field.
    The other example that I'll give you is an example of what 
happens when the technology comes from an unexpected source and 
matures. This is something that will supposedly happen in 
approximately 2 years--it's on a 4-year plan, and it's on 
schedule: That is a new cure for malaria, which now kills 
annually 1.5 million people in the world today. It has been 
discovered there is a plant that will cure malaria--which is 
now resistant to quinine--so that's a serious problem in the 
world. People have realized how to take the gene from that 
plant and put it in bacteria, and then the bacteria will 
produce this cure. The World Health Organization is funding the 
combination of Jay Keasling, who is at UC Berkeley, his 
laboratory and a private company (Amyris Biotechnologies, 
Inc.)--to build this, and they claim that in 2 years they will 
deliver the cures for malaria at 25 cents a dose.
    That's really impressive. But what it tells you is, once 
you truly understand a disease, and understand the cure--the 
molecular cures and so forth--you can do it at a reasonable 
price. When you look at the escalating healthcare costs, you 
realize that one reason they are so high is we have an aging 
population that's living longer. This is due to our successes, 
but we still have healthcare problems. Once you understand the 
diseases, you can treat them at a much lower cost, and that's 
the only way we're going to contain the fact that people are 
going to live to 120, right?
    Senator Pryor. Anybody else want to take that?
    Yes?
    Dr. Mather. Yes, I'd like to, sort of, move the discussion 
over toward the Space Race, which is almost 50 years old now. 
It began with a plan for pure curiosity-driven research in the 
International Geophysical Year. Auroras were of great interest. 
We wanted to know local things about our star, and our 
neighborhood around the Earth. And I was excited about it. But, 
you know, Sputnik went up as part of that international plan, 
and suddenly this country was absolutely petrified. So, it had 
a curiosity-driven program, which was international in nature, 
had instantaneous international ramifications, and obviously 
led to huge investments, eventually, in communications, in 
weather satellites, so we know whether it's going to rain, in 
computers, in monitoring the rest of the world with satellites, 
in astronomical capabilities to look out at all wavelengths 
where the air blocks our view.
    Now even moving on toward looking down at the Earth and 
telling whether it's getting warmer or colder or what, and what 
are the long-term trends on the Earth. And even a military 
application, the Global Positioning Sensor System, is now 
something everyone can have on a cell phone. And it's a 
completely amazing thing that it was all kicked off by 
curiosity-driven research.
    Senator Stevens. I have been around here for a long time, 
and I've probably added more money to more budgets for basic 
research than any Senator in history. But I also see that we 
have, now, enormous foundations, enormous private-sector 
money--Gates, Google, Buffett, you name them--enormous sectors 
of money. They don't seem to be going into this field, because 
they see the amount of Federal money we're putting into it. 
What do you say about that? Is there a balance there somewhere? 
And how much do you--have you gotten private money for--to 
supplement your Federal grants? Where is the balance, in terms 
of society, for basic research, when we have these enormous 
funds out there, and they don't want to put them in where you 
are, because the Federal Government's already monopolizing the 
field?
    Dr. Kornberg. You know, that's the--it's very important to 
bear in mind that the Federal Government has instituted, first 
of all, a system for the distribution of funds, which is 
uniquely effective----
    Senator Stevens. You're not answering my question, now. 
I'm--I don't have a lot of time. Please answer the question. Is 
there a balance between, and do you seek, private funding as 
you're seeking----
    Dr. Kornberg. OK.
    Senator Stevens.--an increase in Federal funding?
    Dr. Kornberg. So, I wanted to explain that, first of all, 
the private funds are far, far less, and, in no way, adequate. 
The private funds are less than 10 percent of what is 
available--what the Federal Government spends, which is, 
itself, presently inadequate.
    Senator Stevens. Federal Government only entails about--in 
my last memory, about--somewhere around 11 percent of the GNP. 
Now--so, let's not tell me that there's more----
    Dr. Kornberg. I'm sorry.
    Senator Stevens.--more funds in the Federal Treasury than 
there are out there in the private sector. There are enormous 
sums. I just want to--do you seek increases in private-sector 
funding as you're seeking--here--I don't disagree with doing 
that, but are you seeking similar increases from the private 
sector?
    Dr. Kornberg. Please understand, there are two components 
to the private sector, the foundations and companies. The 
foundations have far less funds, much less than 10 percent of 
what the Federal Government makes available, which is, itself, 
inadequate. Second, companies will never invest in research 
that requires 25 to 50 years to do. They are looking for short-
term gain. And so, it's hopeless to look to them. On the 
contrary, they look to the Government, and they look to us, for 
the lifeblood of their industry.
    Senator Stevens. Well, I'm not totally satisfied with that, 
because we've doubled research funding for NIH, we've doubled 
research funding in basic sciences since I've been here--more 
than doubled. We have not seen the emphasis of going to the 
private sector for support for basic research that existed 
before all this Federal money came in. When I first came in, 
there was very little Federal money going into basic research. 
Very little. DARPA was one of the first real sectors of 
increased Federal funding, and that's within my lifetime, 
within my time here in the Senate. So, before that, private 
sector--the research base of this country was the private 
sector. But it seems that as we increase Federal funding, they 
pull back. And I'm sincere in asking you----
    Dr. Kornberg. I understand.
    Senator Stevens.--I think you should be seeking additional 
funds from the private sector. Those foundations are gigantic. 
And several of them gave $30 billion last year to various 
functions. Now--and what you're talking about is not $30 
billion. We haven't increased your funding by $30 billion.
    Dr. Kornberg. I can't speak to the $30 billion, because I'm 
unaware of funds even approaching that scale being available 
from any other source to our research. But in regard to the--
seeking funds from the private sector, we struggle all the 
time. When Federal funds fall short, as they have done of late, 
and people are leaving our field, we try desperately, and we 
appeal to every other source. We do obtain small amounts of 
money, occasionally, from some non-Federal source, but there's 
no way they can now, or ever will, match, for value, as well as 
for quantity, what is distributed by the Federal Government.
    Senator Stevens. Federal Government doesn't have any money, 
except what it takes from you. So, don't tell me we've got more 
money than the private sector. We don't. The question is how 
much is going to be dedicated to the kind of research that you 
want us to do, and do so well. I just think there ought to be 
some balance here, in terms of the amount of money you ask us 
to provide from the taxpayers and the amount of money you go 
out and solicit----
    Dr. Kornberg. Please----
    Senator Stevens.--from the private sector.
    Dr. Kornberg. Please understand, the private sector makes 
an enormous investment in development, based upon our 
discoveries. They invest massive amounts--I think, far beyond 
the $30 billion to which you alluded--in exploiting the 
discoveries made from Federal funds to multiply the value of 
that Federal investment.
    Senator Stevens. Well, don't shoot the messenger, but we're 
hearing this. We're hearing that we're reaching the point that 
we're putting up a lot more taxpayers' money for things that 
the private sector could, and should, do.
    Dr. Kornberg. Well, I would respectfully suggest that the 
public--private sector is trying its best, and that the 
argument that has been put to you on those lines is mistaken.
    Dr. Fire. I can, maybe, tell a little story. We had a 
research project that was certainly not ready to be funded by 
NIH. And there was a private foundation in that field that 
funded new work. Ours was long-term research and we said that 
this wouldn't be really valuable for about 10 or 20 years. So, 
we put in an application. That agency had sent out a request 
for proposals, and there were hundreds that came in, all 
related to that particular area of science--medicine. And they 
had to make a decision, in the short term, on what they could 
fund--what they felt would benefit what was essentially their 
client base, which was a specific set of people that were 
affected now with the disease. Our proposal was certainly not 
amongst those that would be most highly beneficial to anybody 
that has the disease now. And, of course, it wasn't funded by 
the foundation. I think that the private sector, both 
foundations and companies, are doing the best that they can, 
but they have limitations, too. If you look at their ability to 
fund really basic research into fundamental questions, it's 
quite limited. They look to themselves sometimes to leverage 
given areas, where the research will get to a point where then 
it's federally supportable. They look to go into areas that 
might be difficult to be funded otherwise.
    Also remember that foundations and industry look for 
support from the Government--this includes industry looking for 
early leads on developments that could be useful for 
therapeutics that could be useful and economically beneficial. 
They (foundations and companies) also look for guidance from 
basic scientists that can work in a setting where there isn't a 
requirement to make a profit or focus on one disease.
    I think if you were to get rid of a certain fraction of the 
NIH budget, and hope that this would be taken over by the 
private sector, you wouldn't get the same kind of science done, 
and both the companies and foundations that would be trying to 
take up the slack, and the scientists trying to do the work 
would be unable to do the kinds of work that they need to do. 
And so, the assumption that anyone could ``take up the slack'' 
in federal funding would hurt both the basic and applied at the 
same time.
    Senator Pryor. OK. You all may have wondered what these 
lights are and what these buzzers are. That means we're in a 
vote, and we're more than halfway through the vote now.
    So, what I'm going to do is recess the Committee for 5 to 
10 minutes. I think I'll be back within 10 minutes. And we'll 
pick up where we left off.
    So, we'll be in recess for--subject to the call of the 
Chair.
    [Recess.]
    Senator Pryor. We'll call the Committee back to order. 
Thank you all for being patient. We just had a vote. And now, 
see the two little lights on, that means we're in a quorum 
call, which means they're trying to figure out what to do next 
on the floor.
    Let me just run through a few questions. And, again, I 
understand that you all need to go to the White House so maybe 
10-15 more minutes max, of questions, and then we'll let you 
all get on your way.
    Let me ask a couple of questions here, quickly. And, again, 
just kind of free-flow an answer, whoever wants to jump in, 
we'd love to have your thoughts. Like I mentioned, your 
statements will already be part of the record, so please know 
that those points have been made publicly.
    We talked about funding basic research, and the lack of 
risk-taking on the part of Federal agencies. The NIH budget 
doubled in the 5 years from Fiscal Year 1999 through 2003, but 
has remained flat since then. The percentage of first-time 
applicants for NIH investigator-initiated grants has been 
steadily falling. We see the same problem at the NSF, where new 
investigators have a lower success rate than overall NSF grant 
applications. What steps should the Federal Government be 
taking to ensure that high-risk, high-reward research is still 
being funded? So, who wants to jump in on that?
    Dr. Kornberg. There's a--such a simple--if I may----
    Senator Pryor. Go ahead.
    Dr. Kornberg.--simple--there's an answer--a simple answer 
to that question at one level in regard to NIH, and that is to 
restore what was lost during the period of flat funding, and 
then maintain a steady and reliable budget after that time. 
It's--the--filling the immediate--the gap that has been 
created, the emergency that has arisen, but it's first 
necessary to keep some of the best investigators still in the 
system who would otherwise be lost, and then, after that, 
simply to create a climate of reliability so that people know 
that if they undertake research that may take a very long time, 
and that is risky in nature, they won't be cutoff in the middle 
and unable to complete the work.
    Senator Pryor. Right. Anybody want to add anything to that?
    Dr. Smoot. Yes, I think that when you think about what 
reliable funding means, it means going up at least as fast as 
inflation. In a reasonable enterprise, you would expect that 
science funding would go up with either the overall Federal 
budget or the GDP, just because you're expecting science as a 
long-term investment that returns itself in the economy. If you 
want the economy to keep growing, you have to keep, you know, 
your investment level up at that appropriate percentage.
    Senator Pryor. Sometimes here in Washington--I don't want 
to throw stones at anybody, but let's just say--sometimes here 
in Washington, when we talk about research, it--we naturally, 
sometimes, talk about the ethical use of the research and the 
things that flow from that research, and risks that are 
involved. And, you know, one of the most high-profile 
controversies we've had is embryonic stem cell research. But 
something that we've been working on in this Committee, the 
full Committee, is nanotechnology and some of the environmental 
risks and challenges there, that are--some of those are very 
unknown at this point. So, I have a question, again, for you. 
When Congress, or when the President, puts limitations on 
research, either through Executive Order or through national 
law, what effect--or maybe it could be just the policies that 
the various Federal agencies have--but what effect does that 
have on you, in terms of conducting research, peer review, 
scientific integrity? What does that really do to you?
    Dr. Fire. Maybe I can say something there. I think there 
have to be limits on research. There have been horrible 
experiences over history where research without any kind of 
oversight has caused trouble. So I think all of us accept that 
there are societal rules that have to be made at a governmental 
level and an institutional level. That we have to follow these 
rules, I think we're all comfortable with. We will work as best 
we can within those limits to deliver the science and the cures 
and the economic benefits. This is a conversation. If there is 
a case where we feel that a decision has been made that has 
really hurt--has a negative consequence, it's something that we 
should be communicating back to this body, or other bodies, 
saying ``Here is something where a great opportunity is being 
lost.'' And then, the debate has to occur on the public level, 
not just one way, but a dialogue. We can't say, ``As 
scientists, you need to do this.'' These are really public 
questions to wrestle with. And so, we will work within whatever 
constraints we're given by society to do the best science we 
can.
    Senator Pryor. OK. Let me say----
    Dr. Smoot. But let me interrupt, because----
    Senator Pryor. Yes, go ahead.
    Dr. Smoot.--in the case of stem cell research, you actually 
see that one of the things that happens is some people move 
their research overseas into communities where it was not 
constrained. And those are the places that it's going forward. 
The reason they did it, it was--they believed that it was 
really going to be extremely valuable, in terms of the advances 
that could be made. What you may also see is people going 
overseas for medical treatment.
    Senator Pryor. Right.
    We've been joined by Senator Klobuchar.
    Let me ask one more question, and then I'd like to turn it 
over to her if she has any questions or comments.
    Another debate that we have here in Congress is not 
directly related to you, but, I think, does touch on your world 
of research and academic pursuits, and that is immigration 
policy. This is something that--last year, there was a lot of 
discussion about immigration here in the Congress. And from my 
standpoint, unfortunately, it tended to focus on border control 
and Hispanic individuals entering the country illegally. That 
seemed to be the brunt of the rhetoric. But I know that 
immigration plays a key role in your world, in the world of 
research and academia. Give--just give us some general thoughts 
on what you think the immigration policy should be in this 
country as it relates to you. I mean, I understand everybody 
has strong feelings about lots of different pieces of 
immigration, but just as it relates to what you all do, what 
type of immigration policy should we have?
    Dr. Smoot. I have an anecdote. I have five graduate 
students, and three of them come from foreign countries--one 
from Korea, one from Mexico, which comes directly to the 
Hispanic issue--he happens to be extremely good. One of the 
things you should realize is that Mexico graduates more 
engineers than the United States does. When you start thinking 
about who are you letting into the country, you start thinking 
about what skills you need. The other anecdote at that level--
and I can do one on both sides--is that I have watched the 
applications to graduate school over 25 years, and in the 
beginning we would get, like 100 applicants from foreign 
countries, and we would get on the scale of 600 from the United 
States, now--and, of the 100, a lot of them were unqualified, 
but now we get, like 500 from overseas, and we get 400 or 500 
from then U.S., and the ones from overseas, on the average, are 
better qualified.
    Unfortunately, we have seen a partial failure to attract 
and educate young people in science in the United States, and 
we've seen that the way we get scientists and engineers and 
computer scientists in the United States is by importing 
skilled people from abroad and trying to keep them here. So, 
it's actually vital to the scientific enterprise and the 
economic enterprise to the United States to be able to bring 
skilled, intelligent people into the country and make that 
process work smoothly. So, the issue always was one of--first, 
of getting bodies into the U.S., but now of getting skilled 
people who are going to contribute to society, and make them 
welcome, and give them opportunity.
    Senator Pryor. Any other comments on that?
    Dr. Fire. I think----
    Senator Pryor. All right. Well----
    Dr. Fire.--that making non-citizen scientists welcome is a 
really useful goal. Because many of our scientists (including 
students and postdocs) have to go through the system of 
immigration, we have a vested interest in making that system 
work. I think all of the caution that we take is necessary, but 
what do our guests see now? As they see some of the 
difficulties that the immigration system has, some of the lack 
of respect that they're shown as they go through the system--
this is really problematic. And so, some kind of a personal 
treatment from people in the immigration services--where 
they're welcomed--they should find, ``We need to do this 
careful screening, but we also welcome you into in our 
country.'' Even though it might not change any specific policy, 
that would make a huge difference in our ability to bring in 
talent. As the first agency they see when they get to this 
country, or as the first contact as they're planning to go to 
this country--the immigration machinery could make a huge 
difference in our ability to attract the best people.
    Senator Pryor. Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you for coming. Congratulations on 
your accomplishments and your prize. I come here having the 
only prize I've ever won was Ms. Skyway News of March 1988.
    [Laughter.]
    Senator Klobuchar. So, I'm in your league, as you can see.
    [Laughter.]
    Senator Klobuchar. I wanted to talk to you. I come from 
Minnesota, where we believe in science, the home of the Mayo 
Clinic, and the University of Minnesota, and I appreciated what 
you were saying about stem cell research. We've actually lost 
some people from the University of Minnesota to Europe because 
of the limitations on the research. I also was listening to 
you--Dr. Smoot, about the immigration issue. I've had the CEO 
of Medtronic from Minnesota tell me how it was getting 
difficult for them because of these issues and things. When 
graduate students were in, that they wanted to keep on, that 
they had some issues in trying to do that. So, I think that's 
something that cries out for comprehensive reform.
    I wanted to ask a little bit about our own education 
system. I have a daughter who's 11, and is actually in Mark's 
daughter's class, and I've seen some good science going on in 
the Arlington public schools in Virginia. I wonder what you 
think needs to be done with our public schools to get us into 
the direction so we can have more Americans sitting at a table, 
like you are today.
    Dr. Mather. I'd like to address that question, just for a 
moment. We, as a nation--indeed, as a species--really, the most 
important thing we do is pass knowledge to the next generation. 
And as a democracy, this is incredibly important. We, as a 
people, have to make ethical decisions related to technology, 
things like stem cell research, and we need to have people who 
understand the science involved so that they can make informed 
decisions about whether it's ethical or not. For example, I 
have a 6-year-old who has type I diabetes, and, you know, 
it's--it really brings home, when you or a loved one has a 
disease that could be treated with stem cell biology, for 
example, the importance of exploring these, and sometimes very 
complex ethical issues. I'm not taking a position, beyond 
saying that it's extremely important that we educate our young 
people so that ultimately we'll have citizens who can make 
informed decisions about the future of this country. And we're 
not doing a very good job of that.
    In my state, we have Proposition 2\1/2\, where we cannot 
levy more than 2\1/2\ percent each year on our property taxes. 
Just yesterday, we took a vote in our local elections, and, 
despite extreme efforts to organize the ``yes'' vote, we failed 
to produce an override. Consequently, our schools, in the midst 
of a diabetes and obesity epidemic, are now charging our young 
people at least $225--this is going to go up--to participate in 
track. So, we have kids who want to run, and then--and now 
we're charging them extra money to participate in track. We're 
going to cut freshman athletics. We have a fifth-grade study 
hall. And this is happening all over the state, because--I 
know, I was deeply involved in this organization. I'm 
heartbroken today to have to be here, you know, not having that 
success behind us. But I'm also energized, because we need to 
redouble our efforts to fix this problem on a national level, 
on a State level, on a local level. It's going to take, you 
know, efforts on every level. And we're certainly energized in 
our state, in our local and our town of Shrewsbury, 
Massachusetts, to do what we can for our young people. They're 
the future. And let's face it, we're not handing them a very 
certain future, we're handing them a future that's very 
uncertain--I think, much more so than when we were young 
people. And we need to prepare them for that uncertain future, 
and we need to see that they have a great education. I don't 
have a solution, unfortunately.
    Senator Klobuchar. OK.
    Anyone else?
    Dr. Smoot. I actually spend a fair amount of my time and 
some of my resources and have been doing for many years, but 
now boosted by having the Nobel Prize, I'm trying to address 
this education problem. Along with one of my colleagues, I am 
trying to create a teachers academy for middle- and high-school 
science teachers, and to couple that with a program (a new 
program in California), which is encouraging people to get a 
double degree in science and in education so they can become 
high-school and middle-school science teachers or math 
teachers. It's absolutely essential that we bring in quality 
teachers, and we get them to be enthusiastic, and keep them 
connected to the science enterprise so that they share the 
excitement and the enthusiasm that they have for the subject to 
their students. That will help bring them along. And those 
students may not become scientists, they may become engineers, 
they may become computer scientists or whatever else, but 
they're the technological backbone of what the society will be. 
Right now, the short-term solution is, we've got to import; the 
long-term solution is we have to bring our K through 12, and 
then beyond, education up to the world's standards. Right? You 
notice we're 26th now. So----
    Senator Klobuchar. Right. I was just thinking of what Dr. 
Mello had said. I decided that we had a breakthrough at our 
home last night. My daughter, the science she had before she 
came to this school wasn't as strong, and last night, after 
living through Mrs. Migurca, she goes, ``Mom, I think what Mrs. 
Migurca's saying is starting to make sense, it has everyday 
application in my life.''
    [Laughter.]
    Senator Klobuchar. And then she proceeded to talk about how 
many times we flush the toilet and that we were wasting water. 
But, in any case----
    [Laughter.]
    Senator Klobuchar. I think that what I was saying, what Dr. 
Mello said, beyond graduating better students that go into 
science, I think that it's going to give them a better 
understanding of issues, like climate change and things like 
that, that's going to help them, whether they go into science 
or not, and then understanding stem cell research and some of 
these other issues.
    My last question would be this. I understand I'm the only 
thing that divides you between this hearing and going to the 
White House, so we don't want the 98th most-senior Senator to 
hold you up on that journey, but----
    [Laughter.]
    Senator Klobuchar.--I just wondered, the U.S. used to rely 
on major labs, financed labs--like AT&T and General Electric 
and IBM, to do a lot of our research and these national labs no 
longer exist. I'm just wondering if you think that DOE-
supported labs at Los Alamos, other places, can serve as a 
replacement for these industrial labs, or if you think that we 
should be looking at other routes, as well.
    Dr. Smoot. I have a joint appointment between the Lawrence 
Berkeley National Lab, which is a DOE lab, and the University 
of California. That system works extremely well, having a 
national lab with cross-cutting professors who are in both 
places. We have about 200 to 300--I think 280--professors with 
joint appointments, along with a tremendous influx of students 
and postdocs. It keeps everyone refreshed, and it keeps science 
on track. The national labs, particularly the DOE labs, serve 
as a reservoir of basic science knowledge, but you also have 
NSF facilities and NASA centers that play important roles or 
more specific roles. When a crisis comes, like the energy 
crisis (of course, DOE is now Department of Energy, but it 
wasn't originally) or, in this case, in the biological 
sciences, Dr. Kornberg used the facilities in order to do 
that--they are certainly very important as a resource of talent 
and facilities.
    There are a lot of national labs in the country. Are they 
all effective? Perhaps they could be restructured in some 
cases. But, in fact, they create a combination of basic 
research in universities which is extremely important. That's 
where the next generation will come from. It's where many good 
ideas originate. The expertise that exists in the national labs 
and centers, along with the ability to take on big projects and 
resolve important issues as they arise in the country. So we 
must do that. It's unfortunate regarding the economics, as in 
the case of Bell Labs. Since Bell was a monopoly, it could take 
part of its regulated money in order to support this national 
laboratory. Also, when IBM was a very rich and powerful company 
it could invest in the future. As the world economic climate 
changes, those things drop out, and it's really the Federal 
Government that has the primary role of doing basic research. 
When it comes to applied research, the higher you go up the 
chain, the closer to applications, the more the technology 
should transfer over into the private sector.
    Senator Klobuchar. OK. Anyone else?
    Thank you very much.
    Senator Pryor. I want to thank you all for being here. 
Before I cut you loose, I want to say that it's really been an 
honor to have you here. And what we'd like to do is, every 
year, have a panel of the three winners--the three Nobel 
Laureates. And so, my last question is, do y'all have 
predictions for who will----
    [Laughter.]
    Senator Pryor.--win next time? We need to get our 
invitations out for next year. So--seriously, do y'all have any 
predictions on any great stuff that's going on out there, 
either in medicine, chemistry, or physics? Is there a favorite 
out there? I know it's not quite like the Kentucky Derby, but--
--
    [Laughter.]
    Dr. Mather. I think we have to plead the Fifth on that and 
take a----
    Senator Pryor. OK.
    Dr. Smoot. We also have a role that we get, also, to be 
nominators.
    Senator Klobuchar. Oh.
    Dr. Smoot. Right? So----
    Senator Klobuchar. You're crossing protocol----
    Senator Pryor. So, it's like the Academy Awards.
    Senator Klobuchar.--here, Senator.
    Dr. Smoot. So, we have to be careful about what we say.
    Senator Pryor. So, it's like the Academy Awards. Once you 
win the Oscar, for life you get----
    [Laughter.]
    Dr. Smoot. You get a chance to put in----
    Senator Pryor. Wow.
    Dr. Smoot. Well, it's a very complicated procedure but you 
can propose people to be actually nominated. It's called 
``nominating,'' but it goes to a Committee after that, which 
then decides whether to present cases and so forth.
    Senator Pryor. Well, we'd like to put in a word for 
Minnesota and Arkansas.
    Dr. Smoot. Right.
    [Laughter.]
    Senator Pryor. Listen----
    Senator Klobuchar. Thank you.
    Senator Pryor.--thank you all for being here. And I think 
we may want to do a very quick photo. Senator Klobuchar, if you 
want to join in that----
    Senator Klobuchar. Sure.
    Senator Pryor.--that would be great. And then we'll let you 
go.
    Thank you very, very much.
    [Whereupon, at 5:17 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    Science is the basis of human progress. This field of knowledge 
allows us to understand the world around us and to continually 
transform and improve our quality of life. Today's essential 
technologies, such as mobile phones and air travel, are based on our 
understanding and mastering of scientific concepts like the 
electromagnetic spectrum and aerodynamics.
    Since the Industrial Revolution, the United States has reaped the 
benefits of our investment in scientific research. American scientists 
have been at the forefront of discoveries that have changed the world. 
Barbara McClintock observed the transposition of genes, breaking new 
ground in molecular genetics.
    John Von Neumann's work in mathematical logic laid the foundation 
for computers. And Richard Feynman expanded the theory of quantum 
electrodynamics. These are just a few examples of the American 
scientific contribution to world knowledge.
    Our panel today reflects a cross-section of America's exceptional 
scientific leadership. This team represents a complete sweep of the 
2006 scientific Nobel prizes, for the first time in more than 20 years, 
an impressive and well deserved accomplishment. Their hard work and 
persistence are largely responsible for this achievement. At the same 
time, I am sure our distinguished witnesses would agree that some 
credit is due to the American scientific enterprise. Our strong 
educational system and research infrastructure lies at the heart of 
this enterprise.
    For decades our nation, which accounts for only 6 percent of the 
world's population, has produced more than 20 percent of the world's 
doctorates in science and engineering.
    However, our system is in jeopardy. The National Academies' Rising 
Above the Gathering Storm report warns that the Nation is at risk of 
falling behind our international competition. According to the 2006 
National Science Board Science and Engineering Indicators, 78 percent 
of science and engineering doctorates are earned outside of the United 
States. Almost half of the masters degrees awarded in computer science 
in this country went to foreign students.
    We must take corrective action to ensure the United States does not 
lose ground in science and technology. Just last week the Senate passed 
S. 761, the America COMPETES Act. The legislation received 88 votes in 
the Senate.
    That strong showing reflects how united this body is in recognizing 
the need to bolster the Nation's competitiveness. The bill calls for 
reinvestment in our scientific endeavor through increased funding for 
the National Science Foundation, the National Institute of Standards 
and Technology, and the Department of Energy's Office of Science. S. 
761 also encourages broader participation in the science, technology, 
engineering, and mathematics fields, particularly by women and 
underrepresented minorities.
    The accomplishments of this panel are impressive, and if we are 
hoping to replicate their achievement 20 years hence, the United States 
must seek continuous improvement in our science enterprise. I look 
forward to incorporating the recommendations of this esteemed panel 
into our legislative work this Congress.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                           Dr. Roger Kornberg

    Question 1. You spoke about the challenge of funding basic research 
and the lack of risk-taking on the part of our Federal agencies. The 
NIH budget doubled in the 5-years from Fiscal Year 1999 through 2003 
but has remained flat since then. The percentage of first time 
applicants for NIH investigator initiated grants has been steadily 
falling. We see the same problem at the National Science Foundation 
where new investigators have a lower success rate than overall NSF 
grant applications. Can you describe some of the benefits to scientific 
discovery directly related to the doubling of the NIH budget and what 
will be the impact of the recent flat funding?
    Answer. The doubling of the NIH budget elicited a remarkable 
response from the private sector. There was a surge in philanthropic 
contributions to universities and research institutes for the 
construction of new facilities for basic biomedical research, to be 
staffed by new young faculty who are the driving force behind 
scientific discovery. The stage was set for an explosion in precisely 
the sort of new information from which important new drugs and medical 
procedures are derived. The recent flat funding has undercut the 
promise of this truly exciting and crucially important development. The 
partnership between government and the private sector is in crisis. Not 
only have the new investigators gone largely unfunded, and in many 
cases driven from the field, but superb established investigators at 
the peak of their powers are finding it difficult, sometimes 
impossible, to continue with their work.

    Question 2. What steps can the Federal Government take to ensure 
that high-risk, high-reward research is funded?
    Answer. Two steps are critically important. First, a level of NIH 
funding commensurate with the doubling should be reestablished and 
increased as in the years before the doubling, to enable the natural 
growth of biomedical science. Without growth there is no entry of the 
new young scientists, trained in established laboratories, and most 
creative in their early years as independent investigators. Second, and 
no less important, NIH should be directed to devote most funds to 
individual investigator-initiated (RO1) grants, and discouraged from 
funding targeted toward specific diseases and funding of large programs 
targeted toward specific lines of research. History has shown that RO1 
grants are the wellspring of discovery, while targeted programs are 
less productive or fail.

    Question 3. How do we reconcile highly innovative, potentially 
transformative research with the peer review process for awarding 
grants?
    Answer. Peer review works well when funding levels are adequate, 
and breaks down when funding is cut. The reason is that ``highly 
innovative, potentially transformative research'' is risky. Review 
panels become more conservative when funds are limited, and avoid all 
risk.

    Question 4. Would programs similar to the NIH Director's Pioneer 
Award Grants work in other agencies?
    Answer. The NIH Director's Pioneer Award Grants should be 
discontinued. To extend this approach to other agencies would be a 
terrible mistake. The NIH Director himself is superb. The Pioneer Award 
Grants, however, and also the programs targeted toward specific lines 
of research, undercut the proven, peer review-based RO1 approach. Those 
who have received a disproportionate share of funding through the 
Pioneer Award program are no more capable and no more likely to produce 
important discoveries than those who have not received these awards. 
The Pioneer Award and other such programs cause harm by depriving many 
dedicated, deserving investigators of needed support.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
